        Treasury
    Inspector General
         for Tax
      Administration


         “Taxes are wha t we pay for a
          civilized society”
                    – Oliver Wendell Holmes




Semiannual Report to the Congress

   April 1, 1999 – September 30, 1999
…the 105th Congress created a statutory Inspector General,
specifically for oversight of the Internal Revenue Service

    “The Treasury Inspector General for Tax Administration
    shall exercise all duties and responsibilities of an Inspector
    General of an establishment with respect to the Department
    of the Treasury and the Secretary of the Treasury on all
    matters relating to the Internal Revenue Service. The
    Treasury Inspector General for Tax Administration shall
    have sole authority under this Act to conduct an audit or
    investigation of the Internal Revenue Service Oversight
    Board and the Chief Counsel for the Internal Revenue
    Service.”

…Section 1103 of Public Law 105-206, The Internal
Revenue Service Restructuring and Reform Act of 1998,
enacted July 22, 1998…
                                   DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                             October 29, 1999



      The Honorable Lawrence H. Summers
      Secretary of the Treasury
      Washington, D.C. 20220

      Dear Mr. Secretary:

      I am forwarding to you the Treasury Inspector General for Tax Administration’s (TIGTA)
      Semiannual Report to the Congress for the six-month period ending September 30, 1999. I am
      pleased to report that we have successfully completed our transition period and our new
      processes have stabilized. We are well positioned to devote our full attention and focus to the
      complex issues that face the Internal Revenue Service (IRS).

      During this period, our organization delivered audit reports and investigative services that
      promote economy, efficiency and the highest level of integrity within the IRS organization. We
      issued 47 final audit reports that included $169 million in financial accomplishments. We also
      closed over 1,600 investigations of alleged criminal wrongdoing and administrative misconduct.
      Court ordered fines and restitution totaled almost $13 million.

      In the Office of Audit, significant resources were devoted to fulfilling the requirements imposed
      by the IRS Restructuring and Reform Act of 1998 (RRA 98). We issued 16 audit reports to meet
      our RRA 98 statutory requirements, including reports on IRS’ compliance with new seizure, lien
      and levy procedures, prohibitions on the use of enforcement statistics and the adequacy and
      security of information technology. Audits were also completed on other taxpayer protection
      and rights issues, such as treatment of taxpayers during office audits and selecting returns for
      examination, and on IRS’ Year 2000 compliance efforts.

      TIGTA’s investigative activities also focused on RRA 98 requirements including developing
      procedures to process Section 1203 misconduct allegations, implementing a new system to
      track complaints and referrals, and providing guidance to IRS on establishing a compatible IRS
      complaint tracking system. Investigative efforts also included significant work with the
      Unauthorized Access to Taxpayer Accounts (UNAX) Detection Project which identified 478
      leads of potential illegal access of taxpayer accounts.

      I look forward to working with you in addressing the many challenges of overseeing the nation’s
      tax administration system.

                                                          Sincerely,




                                                          David C. Williams
                                                          Inspector General
      Enclosure
This Page Left Intentionally Blank
                                      Semiannual Report to the Congress



                                                 Table of Contents
Office of the Inspector General for Tax Administration ............................................. 1

Authorities..................................................................................................................... 1

Major Issues Facing the IRS......................................................................................... 2

Office of Audit ............................................................................................................... 7

Office of Investigations .............................................................................................. 23

Appendix I
  Statistical Reports for the Office of Audit................................................................... 37
        Questioned Costs, Funds Put to Better Use, Additional Quantifiable Impact on Tax
        Administration

Appendix II
  Statistical Reports for the Office of Investigations ..................................................... 41
        Investigative Results, Complaints/Allegations Received by TIGTA and IRS,
        Administrative Status and Dispositions on Closed TIGTA Investigations

Appendix III
  Statistical Reports—Other........................................................................................ 45
        Audit Reports With Unimplemented Corrective Actions, Access to Information,
        Audit Reports Issued in Prior Reporting Period With No Management Response,
        Revised Management Decisions, Disputed Audit Recommendations,
        Review of Legislation and Regulations

Appendix IV
  TIGTA Audit Report Listing ...................................................................................... 53

Appendix V
  Section 1203 Standards........................................................................................... 57

Appendix VI
  Statutory TIGTA Reporting Requirements................................................................ 59

Appendix VII
  Acronyms................................................................................................................. 65

Appendix VIII
  Organization Chart ................................................................................................... 67




                           Treasury Inspector General for Tax Administration
                                         September 30, 1999
This Page Left Intentionally Blank
                                 Semiannual Report to the Congress




                        Office of the Treasury Inspector General
                                  for Tax Administration

INFORMATION ABOUT THE                               TIGTA is responsible for:
TREASURY INSPECTOR GENERAL                          •   Conducting and supervising
FOR TAX ADMINISTRATION                                  independent and objective audits
                                                        and investigations relating to IRS
The Office of the Treasury Inspector General            programs and operations.
for Tax Administration (TIGTA) was
established in January 1999, in accordance          •   Protecting the IRS against
with the Internal Revenue Service                       external attempts to corrupt or
Restructuring and Reform Act of 19981                   threaten its employees.
(RRA 98). TIGTA provides independent                •   Reviewing and making
oversight of Internal Revenue Service (IRS)             recommendations regarding
activities, the IRS Oversight Board and the             existing and proposed
IRS Office of Chief Counsel. As mandated                legislation and regulations
by RRA 98, TIGTA assumed most of the                    relating to the programs and
responsibilities of the IRS’ former Inspection          operations of the IRS and
Service, with the exception of performing               TIGTA.
background checks and providing physical            •   Recommending actions to
security to IRS employees.                              resolve fraud, abuses and
TIGTA is organizationally placed within the             deficiencies in the programs and
Department of the Treasury, but is                      operations of the IRS.
independent of the Department and all other         •   Informing the Secretary of the
Treasury offices, including the Treasury                Treasury and the Congress of
Office of the Inspector General. TIGTA’s                problems and the progress made
focus is devoted entirely to tax administration.        in resolving them.
TIGTA includes the Office of Audit, Office of
                                                    TIGTA’s programs emphasize deterrence and
Investigations, Office of Chief Counsel and a
                                                    detection approaches to assist IRS in ensuring
Management Services function. There are
                                                    the highest degree of integrity and ethics in its
approximately 960 auditors, special agents,
                                                    workforce. TIGTA also has responsibility for
attorneys and support staff nationwide.
                                                    investigating allegations of misconduct by
TIGTA’s audit and investigative activities are      IRS employees.
designed to:
•     Promote economy, efficiency, and              AUTHORITIES
      effectiveness in the administration of the
      internal revenue laws.                        TIGTA has all the authorities granted under
•     Prevent and detect fraud and abuse in the     the Inspector General Act of 19782. TIGTA
      programs and operations of the IRS and        also has access to tax information in the
      related entities.                             performance of its responsibilities and the
                                                    authority to report criminal violations directly
                                                    to the Department of Justice. The Inspector
                                                    2
                                                     Pub. L. No. 95-452, 92 Stat. 1101, as amended,
1
    Pub. L. No. 105-206, 112 Stat. 685              at 5 U.S.C. app. 3 (1994 & Supp. II 1996)

                        Treasury Inspector General for Tax Administration
                                      September 30, 1999
                                  Semiannual Report to the Congress



General and the Commissioner of IRS have              •   Processing returns and implementing tax
established policies and procedures                       law changes during the tax filing season.
delineating responsibilities to investigate           •   Implementing quality telephone and
offenses under the internal revenue laws.                 walk-in customer service.
In addition, RRA 98 amended the Inspector             •   Minimizing tax filing fraud and protecting
General Act of 1978 to give TIGTA statutory               revenue.
authority to carry firearms and execute the
                                                      •   Selecting and controlling tax returns for
provisions of I.R.C. Section 7608(b)(2).
                                                          examination.
These provisions include the law enforcement
authority to execute and serve search                 TIGTA reported on some of these issues in
warrants, serve subpoenas and make arrests.           the March 1999 Semiannual Report to the
                                                      Congress. TIGTA continued to provide audit
                                                      coverage and investigative support on these
MAJOR ISSUES FACING THE IRS                           issues during the remainder of Fiscal Year
                                                      (FY) 1999.
The IRS collects over $1.7 trillion annually to
fund the nation’s government. This requires           Most of the management issues reported in
the processing of over 200 million tax returns,       January 1999 will continue to pose risks for
issuing over 90 million refunds, distributing         the IRS in FY 2000. In addition, two other
over 1 billion tax forms and publications, and        areas will present challenges for the IRS.
assisting over 130 million taxpayers. The IRS         First, the IRS must address equally important
must continually strive to achieve these tasks        issues, providing first rate customer service
while maintaining the highest level of                and ensuring compliance with the tax laws.
integrity and assuring taxpayer privacy. IRS          The challenge for IRS is to execute both of
implements a continuous influx of tax law             these activities within the constraints of
changes and must enforce tax laws to ensure           existing resources. For example, a significant
that all parts of the taxpaying public pay the        number of Examination and Collection
proper amount of tax.                                 resources have been reassigned to Customer
In executing its daily responsibilities, IRS          Service and implementing RRA 98. As a
faces many management issues. In                      result, the inventory of delinquent cases in the
January 1999, TIGTA advised the House                 collection process is increasing and the
Committee on Ways and Means of the                    amount of tax assessments is decreasing.
following serious management issues facing            Secondly, the global economy is growing
the IRS:                                              rapidly and is generating increasingly
                                                      sophisticated and massive business
•     Implementing taxpayer protection and
                                                      transactions. IRS must develop effective
      rights provisions of RRA 98.
                                                      compliance programs for this expanding
•     Implementing technology investment              segment of taxpayers.
      management.
                                                      All of these areas will be the focus of
•     Progressing in its Year 2000 (Y2K)              TIGTA’s audit and investigative activities
      compliance efforts.                             during FY 2000.
•     Managing finances.
                                                      The following sections provide a summary of
•     Implementing the Government                     the major issues in the IRS and what TIGTA
      Performance and Results Act of 19931            has done to address them during this reporting
      (GPRA).                                         period.

1
    Pub. L. No. 103-62, 107 Stat. 285

                        Treasury Inspector General for Tax Administration
                                      September 30, 1999
                                                  2
                               Semiannual Report to the Congress



Implementing RRA 98                                   audits for personal gain; or willful
                                                      understatement by an employee of his or her
IRS continues to confront the challenges of           own federal tax liability. The misconduct
implementing RRA 98. RRA 98 mandates                  identified in Section 1203 has always been
significant changes to the way IRS does               subject to discipline by IRS; however, the
business. In part, RRA 98 was passed due to           mandatory penalties imposed by RRA 98
Congressional hearings which focused on the           served notice that a high standard of conduct
misuse of enforcement statistics and abusive          is expected of IRS employees to ensure the
treatment of taxpayers. Several taxpayers             trust and confidence of the public.
testified to unfair and unreasonable treatment        To address employee misconduct issues,
by IRS employees. Implementation of the               TIGTA’s Office of Investigations worked
legislative provisions imposed on IRS will            with IRS to develop procedures regarding
result in enhanced taxpayer protection and            assessment, referral and investigation of
rights, as well as organizational changes             allegations of misconduct that are covered by
intended to achieve a more efficient and              Section 1203. TIGTA also operates a toll-free
responsive organization.                              hotline number, an e-mail account and a
TIGTA placed significant emphasis on the              central post office box to receive complaints
implementation of RRA 98. Although IRS is             of alleged wrongdoing by IRS employees.
making progress, TIGTA’s audit work                   Information on how to report misconduct has
indicates that IRS is not in full compliance          been published in IRS Publication 1, Your
with all RRA 98 provisions. For example,              Rights as a Taxpayer, which is provided to
TIGTA reported that IRS was not in                    taxpayers that are likely to have direct contact
compliance with the taxpayer rights                   with IRS employees. The toll-free number,
provisions as they relate to seizures, liens,         e-mail account and address have also been
levies, use of enforcement statistics and             published on TIGTA’s public Internet site.
Freedom of Information Act1 (FOIA)                    Calls and complaints are received by
requests.                                             TIGTA’s Complaint Management Division.
TIGTA also conducted reviews of other                 This Division manages the complaints
taxpayer rights issues, such as treatment of          tracking system which became operational on
taxpayers during office audits and selecting          July 19, 1999. This system provides a central
returns for examination. TIGTA’s Office of            accounting of all complaints received and the
Audit concluded that because of weaknesses            disposition of those complaints. In addition,
in controls and inappropriate actions on cases,       TIGTA is working with IRS’ Complaint
the IRS did not always provide fair and               Processing and Analysis Office to provide
equitable treatment to taxpayers.                     guidance on establishing an IRS complaint
                                                      tracking system that is compatible with
A significant number of the RRA 98                    TIGTA’s system.
provisions deal with improving treatment of
taxpayers and preventing abuse by IRS
                                                      Providing Information Technology and
employees. Section 1203 of RRA 98 provides
for the mandatory termination of IRS                  Computer Security
employees for specific categories of employee
misconduct, including: violation of                   Modernization of the IRS’ computer systems
Constitutional or civil rights of taxpayers or        and security of taxpayer information have
IRS employees; intentional misconduct                 been major concerns for the past several
involving a taxpayer matter; threatening              years. For more than a decade, at a cost of
                                                      $4 billion, the IRS has been attempting to
                                                      modernize its antiquated tax systems. These
1
    5 U.S.C. § 552 (1996)

                        Treasury Inspector General for Tax Administration
                                      September 30, 1999
                                                  3
                              Semiannual Report to the Congress



efforts have fallen far short of what is              Implementing the Century Date Change
required to prepare IRS for the next century.
Modernization of IRS technology is crucial to         Further complicating IRS’ tax administration
implementing the new business vision of               duties is the upcoming century date change
providing world-class service to taxpayers.           and how it will affect IRS computer systems.
Key goals, such as 80 percent of tax returns          Every aspect of tax administration could be
being filed electronically by the Year 2007           affected by the century date change since all
and significantly improving levels of service         IRS functions rely, to some degree, on
in answering taxpayers’ questions, are                automated computer processes. In
contingent on the development of new                  February 1999, the IRS Commissioner
technology.                                           testified before the House Committee on
                                                      Ways and Means, stating that the project life
IRS’ computer security continues to need
                                                      cycle costs for Y2K conversion could total
attention. The IRS Commissioner has stated
                                                      $1.3 billion.2 In addition, the IRS has 1,400
that, “protecting taxpayer information and the
                                                      minicomputers, over 100,000 desktop
systems used to deliver services to taxpayers
                                                      computers, over 80 mainframe computers,
are key to the success of a customer-focused
                                                      and data communications networks
IRS.”1 In the past, the security of taxpayer
                                                      comprising more than 100,000 individual
data has been an Achilles’ heel for the IRS,
                                                      product components that are affected by Y2K.
particularly in the area of unauthorized access
of taxpayer records.                                  TIGTA’s Office of Audit conducted
                                                      numerous audits of the IRS’ efforts to ensure
TIGTA’s Office of Investigations continues to
                                                      systems, applications and infrastructure are
operate an aggressive unauthorized access
                                                      compliant with Y2K requirements. These
detection program. The Unauthorized Access
                                                      audits found that IRS’ executive management
to Taxpayer Accounts (UNAX) Detection
                                                      is aggressively managing the Y2K issue and
Project detects potential unauthorized
                                                      significant progress has been made.
accesses to electronic taxpayer records on IRS
                                                      However, the Office of Audit identified two
systems. During this reporting period,
                                                      fundamental weaknesses that increase the risk
TIGTA identified 478 potential leads of
                                                      of Y2K problems after December 31, 1999.
which 175 were referred to TIGTA field
                                                      First, inaccurate inventories hamper IRS’
offices for investigation.
                                                      ability to identify, track and monitor all
Despite increased publicity about                     components that need to be made Y2K
unauthorized access and more stringent                compliant. Second, several aspects of the
sanctions, these abuses comprised the largest         Y2K conversion effort are behind schedule
segment of investigations of IRS employees            and the time to make the needed changes and
initiated by TIGTA in this reporting period.          to deal with unexpected problems is growing
                                                      shorter.
In addition, TIGTA’s Office of Audit
conducted several reviews of IRS’                     TIGTA is currently conducting follow-up
information systems. These reviews indicate           reviews to determine if the IRS has taken
the IRS is still vulnerable in the area of            appropriate actions to correct the problems
system security. In addition, computer                noted above, including progress in developing
applications need to be enhanced to ensure            contingency plans if Y2K problems do occur.
functional needs are met effectively and
efficiently.
                                                      2
                                                       Statement of Charles O. Rossotti, Commissioner
1
 General Accounting Office Report on IRS              of the Internal Revenue Service, Before the House
Systems Security, GAO/AIMD-99-38, pg. 17,             Committee on Ways and Means (Y2K),
December 1998.                                        February 24, 1999.

                     Treasury Inspector General for Tax Administration
                                   September 30, 1999
                                                  4
                              Semiannual Report to the Congress



Improving Financial Management                          assess the reliability of the data IRS uses to
                                                        evaluate the customer satisfaction measures.
Financial management continues to be a                  TIGTA will complete ongoing reviews and
concern for the IRS. The General Accounting             conduct data validation and customer survey
Office (GAO) could not issue an opinion on              process reviews in FY 2000.
most of IRS’ administrative financial
statements for FY 1998. In addition, the IRS’           Processing Tax Returns and
Senior Council for Management Controls’                 Implementing Tax Law Changes
1999 Annual Assurance Review included
financial accounting of revenue as an open              The IRS’ 1999 filing season was impacted by
material weakness, an issue which has been              numerous organizational and legislative
outstanding since 1995.                                 changes. Delivering a successful filing
TIGTA’s Office of Audit continues to                    season is always a high priority and challenge
perform audit tests in support of GAO’s audit           for the IRS. It is particularly challenging at
of the IRS’ FY 1999 financial statements.               this time because of the computer
This assignment is part of a training effort that       programming changes and testing surrounding
will position TIGTA to assume responsibility            Y2K compliance. The IRS’ limited
for auditing the IRS’ financial statements. In          programming resources must be effectively
addition, TIGTA conducted a limited review              managed to ensure a well planned and
of IRS’ proposed actions to resolve                     executed filing season that appropriately
long-standing concerns around its financial             includes tax law changes on computer
statements. The auditors concluded that the             systems that are Y2K compliant.
actions are an improvement over prior efforts           In a review of IRS’ quality assurance efforts
to address administrative accounting                    over key tax law changes for the 1999 filing
problems; however, IRS can further improve              season, the Office of Audit reported that the
its ability to address systemic deficiencies.           IRS needs to develop and improve processes
The Office of Audit will continue closely               to ensure that the status of programming
monitoring IRS actions that relate to                   changes for the 2000 filing season is
improving long-standing financial                       adequately monitored and accurately reported.
management concerns.                                    In addition, the Office of Audit has identified
                                                        several smaller segments of tax processing
Implementing GPRA                                       that can be further enhanced by programming
                                                        changes. For instance, the Office of Audit
The IRS has made significant strides in                 indicated that some computer programs could
implementing GPRA. IRS is developing a                  more effectively identify and resolve incorrect
new balanced performance measurement                    and missing taxpayer identification numbers
system that will focus on accomplishments in            on tax returns.
three major areas: business results, customer
                                                        The Office of Audit will continue to conduct
satisfaction and employee satisfaction. The
                                                        reviews before and during the upcoming filing
IRS Commissioner has indicated that it will
                                                        season to assess IRS’ ability to effectively and
take several years to achieve a fully
                                                        efficiently process tax returns and implement
acceptable set of balanced measures that can
                                                        tax law changes.
be used at all levels of the organization.
TIGTA’s Office of Audit initiated a series of           Providing Quality Customer Service
reviews around the IRS’ GPRA efforts. The
audit work indicates a need to evaluate the             The IRS has heavily invested in technology
IRS’ customer service survey process and to             but has not improved telephone service to


                     Treasury Inspector General for Tax Administration
                                   September 30, 1999
                                                    5
                              Semiannual Report to the Congress



taxpayers. Recent IRS statistics indicate that        scheme involving a former IRS employee
only 53 percent of taxpayers using IRS’               who prepared fraudulent tax returns claiming
various telephone services receive the level of       the Earned Income Tax Credit. Fraudulent
service they need. Providing better service to        schemes are not just limited to those with
taxpayers is the key concept behind the               inside knowledge of tax processing and the
Commissioner’s plans to modernize the IRS.            IRS must remain diligent in its efforts to
In addition, RRA 98 requires IRS to place             prevent and identify these unscrupulous
greater emphasis on serving the public and            activities.
meeting taxpayer needs.
                                                      The Office of Audit continues its efforts in
In an audit that evaluated assistance provided        reviewing the IRS’ revenue protection
to taxpayers, the Office of Audit concluded           strategy. TIGTA performed reviews of the
that taxpayers were generally provided                IRS’ controls over selected components of the
accurate tax information. However, telephone          electronic filing program. These reviews
assistors could have been better prepared to          focused on the process and standards for
answer taxpayers’ questions and responses to          admitting preparers to the electronic return
e-mail questions could have been more                 preparer program and on procedures to
complete, concise and clear. The Office of            identify and remove dishonest preparers.
Audit also completed reviews of IRS’ walk-in          Overall, the Office of Audit concluded that
services and the strategy to increase taxpayer        management needs to ensure that procedures
access to toll-free telephone services.               are consistently followed, controls are
                                                      improved over removal of preparers,
Protecting Revenue and Minimizing Tax                 computer enhancements are made, and
Filing Fraud                                          additional emphasis is placed on return
                                                      preparer fraud activities.
The IRS has significantly increased its efforts       Details of the specific audit and investigative
to guard against tax filing fraud over the past       activities, as well as information on statutory
several years. However, fraudulent refund             requirements, can be found on pages
schemes, especially related to the Earned             7 through 21, 23 through 36, and in
Income Tax Credit, are still of concern. For          Appendix VI, respectively.
example, TIGTA recently investigated a




                     Treasury Inspector General for Tax Administration
                                   September 30, 1999
                                                  6
                             Semiannual Report to the Congress




            Treasury Inspector General for Tax Administration
                              Office of Audit

INTRODUCTION                                          SIGNIFICANT AUDIT RESULTS

The Office of Audit identifies opportunities to       During this reporting period, the Office of
improve administration of the nation’s tax            Audit issued 47 reports. Appendix IV
laws by conducting comprehensive,                     provides a complete listing of the reports
independent performance and financial audits          issued.
of IRS programs and operations to:
                                                      The results of the most significant reviews are
•   Assess efficiency, economy, effectiveness         discussed in the following sections and
    and program accomplishments.                      represent the major issues and concerns
•   Ensure compliance with applicable laws            identified during this reporting period.
    and regulations.
•   Prevent, detect, and deter fraud, waste,                             RRA 98
    and abuse.
                                                      TIGTA is required to report on IRS’
                                                      compliance with various provisions of
THE AUDIT PROGRAM                                     RRA 98. This semiannual report contains the
                                                      results of the Office of Audit’s reviews to
To accomplish its mission, the Office of Audit        determine whether the IRS is complying with
published an Annual Audit Plan for FY 1999            these provisions and protecting taxpayer
that described its audit focus and direction.         rights while it carries out tax administration
The audit plan included both statutory and            activities. RRA 98 also requires TIGTA to
discretionary reviews. Statutory reviews are          assess the adequacy and security of IRS’
governed by legislation, while discretionary          information technology systems.
reviews are identified through the Office of
Audit’s risk assessment process, and input            The Office of Audit focused significant audit
from the IRS Commissioner, IRS executives,            resources in this area during FY 1999.
and the Congress.                                     Sixteen audit reports related to the RRA 98
                                                      provisions were issued during the reporting
As part of implementing RRA 98, IRS is                period. This includes eight reports on IRS’
reorganizing into four organizational units           information technology systems. Two
focused on specific groups of taxpayers. The          additional reports will be issued in the next
Office of Audit has reorganized from an               reporting period and one of the provisions
organization based on geographic location to          will not be reviewed until its effective date in
a functional structure which reflects the new         January 2000. In addition, nine audit reports
IRS organization. The Office of Audit is now          were issued regarding other taxpayer
organized by the following areas:                     protection and rights issues. Appendix VI
Information Systems Programs, Headquarters            provides an explanation of the specific
Operations and Exempt Organizations                   RRA 98 provisions and a list of the reviews
Programs, Wage and Investment Income                  conducted in these areas.
Programs, and Small Business and Corporate
Programs.



                    Treasury Inspector General for Tax Administration
                                  September 30, 1999
                                                  7
                             Semiannual Report to the Congress



Statutory Requirements                               •   Based on questionnaires, 124 (27 percent)
                                                         of 456 managers and employees
Highlighted final audit reports for the RRA 98           perceived records of tax enforcement
statutory provisions include:                            results had been considered when their
                                                         last performance evaluations were
The Internal Revenue Service Should                      prepared and communicated to them, or
Continue Its Efforts to Achieve Full                     were used as performance expectations or
Compliance with Restrictions on the                      goals.
Use of Enforcement Statistics                        •   During its quarterly certifications and
(Report No. 199910073)                                   independent reviews, IRS management
In September 1997, the Senate Finance                    identified approximately 525 violations.
Committee ascertained that in certain IRS            The Office of Audit did not present
offices, employee performance was evaluated          recommendations for corrective action
in a manner resulting in a work environment          beyond IRS management’s proposed
driven by statistical accomplishments. This          regulations for a balanced system of business
placed both taxpayer rights and the employee         measures. This system appears to be an
evaluation system at risk. As a result,              appropriate first step in resolving these
Section 1204, Basis for Evaluation of Internal       problems.
Revenue Service Employees, was included in
RRA 98. This Section prohibits IRS                   In FY 2000, the Office of Audit will assess
management from using records of tax                 the effectiveness of the progress and
enforcement results to evaluate employees, or        implementation of the balanced system of
to impose or suggest production quotas or            business measures as it relates to the use of
goals for such employees. Instead, one of the        enforcement statistics. In addition, the
standards for evaluating employee                    auditors will evaluate the results of IRS
performance must be the fair and equitable           management’s review of the violations
treatment of taxpayers.                              identified in this report.
The IRS adopted certification procedures to          In response to the audit report, IRS
identify violations of Section 1204. The             management generally agreed with the
certification is performed quarterly by              conditions identified, and stated that they will
first-line managers, and then cross-functional       take whatever steps are necessary to eliminate
management teams perform an annual                   violations.
independent review. These reviews must
include an assessment of the employee                The Internal Revenue Service Should
performance files and employee evaluations.          Improve Its Federal Tax Lien
They may also review documents such as               Procedures (Report No. 199910074)
award narratives, minutes of meetings, case          A federal tax lien (FTL) protects the
reviews, or local memoranda.                         government’s interest by attaching a claim to
The auditors determined the IRS is currently         the taxpayer’s assets for the amount of unpaid
not in full compliance with Section 1204 and         tax liabilities. RRA 98 and I.R.C.
some employees still believe IRS managers            Section 6320 require the IRS to notify
use records of tax enforcement results               taxpayers that a FTL has been filed.
inappropriately. The auditors noted the              Taxpayers may request a hearing with the IRS
following:                                           if they believe the FTL is not appropriate.
                                                     These new requirements became effective for
•   In 28 IRS offices reviewed, 96                   liens filed after January 18, 1999.
    Section 1204 violations were identified.


                    Treasury Inspector General for Tax Administration
                                  September 30, 1999
                                                 8
                              Semiannual Report to the Congress



During the initial implementation period, IRS             measure compliance with the new FTL
management was not consistently                           notification requirements.
implementing the FTL provisions of RRA 98.
                                                      IRS management agreed with the findings and
Taxpayers and their representatives were not
                                                      recommendations and will take corrective
always informed of the taxpayers’ right to a
                                                      action.
hearing once a FTL was filed.
The auditors reviewed 473 cases, of which             The Internal Revenue Service Needs to
157 cases (33 percent) involved 176 potential         Improve Compliance with Legal and
violations of legislative or procedural               Internal Guidelines When Taking
requirements (some cases had multiple                 Taxpayers’ Property for Unpaid Taxes
violations). The auditors’ sample was not             (Report No. 199910072)
statistically valid; therefore, the results may
                                                      IRS procedures and provisions in I.R.C.
not be representative of cases nationwide.
                                                      Sections 6331 through 6344 (1986) are
The following are examples of the apparent
                                                      specific as to how to seize taxpayer property.
noncompliance with the provisions of
                                                      If seizure procedures are followed correctly,
RRA 98 or IRS’ procedures contained in the
                                                      taxpayers’ rights and the government’s
Internal Revenue Manual:
                                                      interest will be protected. RRA 98 places
•   Taxpayer representatives (e.g., attorney,         particular emphasis on taxpayer rights and it
    accountant, etc.) were not sent a lien            contains several new provisions for
    notice.                                           conducting seizures (e.g., approval levels for
•   Lien notices were not mailed to taxpayers         seizing business assets, exemption of personal
    within five business days of the FTL              residences from seizures if the tax liability is
    filing.                                           $5,000 or less, etc.).
•   Taxpayers were not given a full                   The Office of Audit evaluated whether the
    30 calendar days to request a hearing.            IRS conducted seizures according to legal and
                                                      internal guidelines. The auditors reviewed all
•   Undelivered lien notices were not re-sent
                                                      124 seizures (involving 92 taxpayers)
    when another address was available.
                                                      conducted by the IRS during a six-month
•   Sufficient documentation was not retained         period beginning July 22, 1998, the date
    to prove that lien notices were sent to           RRA 98 became law.
    taxpayers or were sent timely.
                                                      The IRS did not follow all legal and internal
•   Responsible spouses or individual                 guidelines when conducting seizures in
    partners in a partnership were not sent a         33 (36 percent) of the 92 taxpayer cases
    copy of the lien notice.                          reviewed and 32 of those cases potentially
The Office of Audit recommended that the              impacted the rights of the taxpayer. The
IRS:                                                  auditors concluded further action is needed to
                                                      ensure that all guidelines are consistently
•   Change systems to automate the mailing            followed.
    and re-issuance of undeliverable lien
    notices to all responsible taxpayers.             Legal seizure provisions were not followed in
•   Revise procedures to ensure that: (1) the         19 (21 percent) of the 92 cases. Examples
                                                      included:
    government’s interest is protected,
    (2) returned mail is researched completely        •   The IRS did not thoroughly investigate
    and processed efficiently, (3) adequate               the status of the property before seizing
    documentation is maintained, and                      property with little or no value, or did not
    (4) management information systems                    consider alternatives to the seizure.


                     Treasury Inspector General for Tax Administration
                                   September 30, 1999
                                                  9
                              Semiannual Report to the Congress



•   Business property was seized without              taxes. The IRS must wait at least 30 calendar
    obtaining the required approvals.                 days from the date the taxpayer is notified of
•   A notice advising the taxpayer of                 the intent to levy and of the taxpayer’s appeal
    enforcement action was not provided on            rights before issuing a levy.
    all tax periods before the IRS seized the         The auditors reviewed 284 taxpayer accounts,
    taxpayer’s property.                              involving 291 levies requested between
IRS procedures were not followed in                   mid-January and mid-April 1999, to
21 (23 percent) of the 92 cases. Examples             determine if the IRS was in compliance with
included:                                             the new levy provisions, as well as its own
                                                      internal levy procedures. In the nine offices
•   Case histories were not documented to             tested, the auditors reported that the new
    indicate Publication 1, Your Rights As A          procedures have not been effectively
    Taxpayer, was provided to the taxpayer.           implemented. The IRS did not consistently
•   Taxpayers were not personally warned              notify taxpayers of the intent to levy and of
    before the seizure action occurred.               their appeal rights. As a result, the rights of
                                                      204 taxpayers were impacted which could
•   Expenses of the seizures were not added
                                                      result in the IRS having to make restitution to
    to the taxpayers’ tax liabilities when the
                                                      some of the taxpayers.
    property was released.
                                                      Legal provisions were not followed in
The Office of Audit recommended that IRS
                                                      92 (32 percent) of the 284 taxpayer accounts
management should:
                                                      reviewed. Internal procedures were not
•   Emphasize the need to use the appropriate         followed in 88 (31 percent) of the taxpayer
    checklists for all seizures conducted.            accounts reviewed. Examples of the
•   Request an opinion from the IRS Office            provisions and procedures not followed
    of Chief Counsel on those seizures that           included:
    did not follow legal guidelines to                •   Taxpayers were not notified of the IRS’
    determine if the IRS should make                      intent to levy and of their appeal rights
    restitution to those taxpayers.                       before levies were issued.
IRS management agreed to complete the                 •   Taxpayers were notified of the IRS’ intent
checklists and to review the applicable                   to levy and of their appeal rights after the
seizure cases to determine if any monies                  levies were issued.
should be returned to the taxpayer as a               •   Taxpayers were notified of the IRS’ intent
result of an inappropriate seizure.                       to levy and of their appeal rights, but
                                                          levies were issued by the IRS during the
The Internal Revenue Service Has Not                      30-day waiting period.
Fully Implemented Procedures to
Notify Taxpayers Before Taking Their                  •   Taxpayers did not have appropriate
Funds for Payment of Tax                                  information added to their computer
(Report No. 199910071)                                    account history to show the taxpayer had
                                                          been notified of the IRS’ plans to levy.
Effective in January 1999, the I.R.C.
                                                      •   Taxpayers did not have appropriate
Section 6330 (1986) requires the IRS to
                                                          information added to their computer
advise taxpayers of their right to have their
                                                          account history to show the initially
case heard by the Appeals Office, and
                                                          requested levy had been destroyed.
potentially a court, prior to the IRS taking
money from taxpayers’ bank accounts,
employers or other parties to pay delinquent

                     Treasury Inspector General for Tax Administration
                                   September 30, 1999
                                                 10
                              Semiannual Report to the Congress



The Office of Audit recommended that IRS               district office employees the ability to use
management:                                            locally derived, and possibly subjective,
                                                       criteria to identify and select returns for audit.
•   Develop methods to ensure taxpayers are
    notified of the IRS’ intent to levy and of         The auditors identified weaknesses in the
    their right to a hearing before a levy is          MACS control environment and in actions
    issued.                                            taken by examiners and managers during the
•   Develop safeguards, such as a quality              initiation and closing of non-DIF audits. The
    review system, to prevent notices from             audit showed that IRS employees accessed
    being mailed to taxpayers unless issuing a         over 3,600 accounts over a two-month period
    levy is the next planned case action.              and the accesses were not supported by a
                                                       valid business purpose. Given the extent of
•   Identify all levies that were issued               control breakdowns identified, the auditors
    without properly notifying the taxpayer.           could not give assurance that IRS employees
    Determine, with advice from the IRS                selected returns for examination fairly, or that
    Office of Chief Counsel, what steps                taxpayers’ personal and financial data was
    should be taken regarding any money                protected from unauthorized and improper
    received as a result of improper levies.           disclosure.
IRS management agreed with the                         The auditors also noted inappropriate actions
recommendations and has initiated corrective           taken by examiners and managers during the
action.                                                initiation and closing of audits that may have
                                                       led to improper taxpayer treatment. For
Other Taxpayer Protection and Rights                   example, the auditors could not always find
Issues                                                 evidence that the IRS had properly informed
                                                       taxpayers of their rights at the initiation of the
Other reviews on taxpayer protection and               audits. In other cases, IRS procedures were
rights issues involved: selecting tax returns          not always followed. In two districts, the IRS
for audit; protecting tax return data in IRS           used discretionary enforcement powers in a
systems; conducting employment tax                     way that appeared to create an unnecessary
examinations; and, making adjustments to               hardship and burden on taxpayers. The two
taxpayers' accounts.                                   districts mailed a six-page questionnaire
                                                       requesting more than 80 items of information
Highlighted final audit reports include:
                                                       to 3,500 low-income taxpayers who claimed
                                                       the Earned Income Tax Credit.
The Internal Revenue Service Needs to
Improve Treatment of Taxpayers                         The Office of Audit recommended that the
During Office Audits                                   IRS:
(Report No. 093602)
                                                       •   Improve separation of duties by locating
Historically, the Discriminant Function (DIF)              MACS in offices other than where the
methodology has been the primary workload                  audits will be worked. IRS employees
identification system used by the IRS to select            that are responsible for identifying
individual tax returns for office audit                    potential MACS returns for audit should
examinations.                                              not be responsible for working the audits.
In the last several years, the IRS has migrated        •   Strengthen specific controls and
from using the DIF and has begun identifying               procedures for initiating and closing
innovative ways of doing business, such as                 audits.
using the Midwest Automated Compliance
System (MACS). The MACS provides IRS

                     Treasury Inspector General for Tax Administration
                                   September 30, 1999
                                                  11
                               Semiannual Report to the Congress



With the exception of centralizing MACS                 medical or financial hardships, not liable for
sites, the IRS management agreed to take                the tax or under audit in the Examination
corrective actions that are consistent with all         Division.
Office of Audit recommendations. IRS
                                                        The district’s practice of levying, as the first
management believes that the management of
                                                        action on a taxpayer case without attempting
MACS should be centralized rather than
                                                        to contact taxpayers, conducting initial
centralizing the MACS sites. In addition,
                                                        analyses, or researching case histories was
Examination personnel will review alternative
                                                        prevalent in most cases reviewed. This
approaches to separating case selection and
                                                        practice was most prevalent in the Department
case assignment practices.
                                                        of Labor (DOL) Project, where levies were
                                                        generally issued as the first action in an effort
The New Jersey District Needs to
                                                        to close taxpayer cases quickly and help meet
Execute Levy Actions Consistent With
                                                        statistical goals. The auditors concluded that
Sound Tax Administration and
                                                        about 56,000 taxpayers were potentially at
Concern for Taxpayer Treatment
                                                        risk for improper levy actions.
(Report No. 199930069)
                                                        Although the district’s “Best Practice”
The IRS has a legitimate need to use levy
                                                        documentation indicated that the basis for the
action as an administrative means to enforce
                                                        DOL initiative was to identify
the collection of taxes. However, when
                                                        “uncooperative” and delinquent taxpayers for
levying taxpayers, the IRS must ensure that
                                                        enforcement action, there was virtually no
appropriate legal and procedural requirements
                                                        attempt to assess taxpayers’ willingness to
are followed and taxpayers are treated
                                                        cooperate and/or their ability to pay prior to
properly.
                                                        the levy actions.
The Office of Audit conducted a review of
                                                        The Office of Audit recommended that:
levy actions initiated by the New Jersey
Collection Division. The review was a                   •   Emphasis be placed on policy and
follow-up review of two FY 1998 audits                      procedural requirements regarding the use
which showed significant problems in the                    of levy authority.
district’s use of performance measures and              •   The district review levy actions taken
statistics, and in the use of seizure authority.            during the past nine months to identify
The Office of Audit reported that the New                   instances that meet criteria requiring
Jersey District violated IRS policy and                     remedies to taxpayers.
procedural requirements in its use of levy              IRS management agreed with the auditors'
authority. These procedures are designed to             findings and recommendations and
assess a taxpayer’s ability to pay, and ensure          implemented corrective actions to ensure at
both that the levy is the proper course of              least one attempt to contact the taxpayer is
action and that taxpayers are notified prior to         made prior to the levy action.
levy action.
The auditors noted that procedures were not             The Examination Returns Control and
followed in 92 percent of the 264 levies                Integrated Data Retrieval Systems Can
reviewed. Also, taxpayers were not afforded             Be Improved to Protect Taxpayer
their right to legal notification prior to the          Rights During the Audit Process
levy issuance for five percent of the levies.           (Report No. 094206)
The auditors also reviewed the levy case files          The Office of Audit initiated a follow-up
and noted that 35 levies were issued to                 review of its October 1996 report (Report
taxpayers who were deceased, experiencing               No. 070106), which identified control

                      Treasury Inspector General for Tax Administration
                                    September 30, 1999
                                                   12
                              Semiannual Report to the Congress



weaknesses in the Examination Returns                 Internal Revenue Service Procedures
Control System (ERCS) and the Integrated              Were Not Consistently Followed When
Data Retrieval System (IDRS). The                     North Florida District Revenue Officers
Examination Division uses these systems to            Attempted to Improve Tax Compliance
select cases for audit, and to control and            in the Construction Trades Industry
dispose of each case. These control                   (Report No. 190303)
weaknesses could adversely impact the
                                                      The IRS Southeast Regional Commissioner
public’s confidence in IRS’ ability to protect
                                                      requested that the Office of Audit evaluate
the privacy and security of taxpayers’
                                                      complaints made by a former employee
personal and financial information.
                                                      regarding the treatment of taxpayers during a
While IRS management had made                         Regional Compliance Program (RCP).
improvements to enhance ERCS and IDRS                 Revenue officers were alleged to have used
controls since the prior audit, the auditors          unauthorized techniques to work RCP leads
noted that the IRS needed to take additional          on employment tax issues in the construction
actions to enhance the effectiveness of               trades industry project.
Examination controls and to provide further
                                                      In responding to members of the Congress
protection of taxpayer rights and tax return
                                                      about these complaints, IRS Collection
information.
                                                      management stated the revenue officers in the
The Office of Audit recommended that IRS              RCP group had acted in accordance with IRS
management:                                           policies and procedures. However, the
                                                      opinions and conclusions of the auditors
•   Improve ERCS audit trail functionality to
                                                      differed from those offered by Collection
    include a process for reviewing user
                                                      management.
    activities and providing data to users of
    the audit trail.                                  The auditors reviewed case files and
•   Improve ERCS controls to eliminate                concluded that taxpayers were treated
    acting managers from having the ability           inconsistently because of how RCP
    to approve any changes to their inventory.        employment tax leads were worked. This
                                                      occurred because management did not ensure
•   Provide more effective oversight over             revenue officers working the RCP cases
    examiners’ capabilities to order tax              received adequate training, followed
    returns and establish, update, and close          appropriate procedures when expanding the
    Examination records.                              leads into examinations and followed Internal
•   Report the results of Examination                 Revenue Manual procedures when conducting
    management’s analyses of case closures            audits.
    due to errors or unlocatable returns.
                                                      IRS management agreed that insufficient
IRS management agreed with the facts and              training was provided to the revenue officers
recommendations and has agreed to take                assigned to the project and that different
corrective action.                                    procedures were used. IRS management also
                                                      agreed to conduct an independent review of
                                                      the cases the auditors questioned to determine
                                                      if Examination audits were conducted instead
                                                      of the less intrusive compliance checks. IRS
                                                      management will ask its Chief Counsel to
                                                      determine any remedial actions that must take
                                                      place for affected taxpayers.



                     Treasury Inspector General for Tax Administration
                                   September 30, 1999
                                                 13
                              Semiannual Report to the Congress



Information Technology                                    appropriately documented and included in
                                                          employee training.
The Office of Audit evaluates the adequacy            •   Computing centers are adequately staffed.
and security of IRS technology on an ongoing
basis. Reviews focused on assessing the IRS’          •   Contract requirements were defined by
progress in implementing its modernization                June 1999 and proper procurement
initiatives and the security and adequacy of              procedures were followed to obtain goods
selected IRS tax processing systems.                      and services.
                                                      •   All consolidation costs were accurately
Highlighted final audit reports include:
                                                          budgeted and reported.
The Service Center Mainframe                          IRS management provided an adequate,
Consolidation Project Has Made                        detailed response to the first summarized
Significant Progress, But Project                     recommendation which was included in a
Execution and Administration Risks                    memorandum issued during the audit.
Remain (Report No. 199920068)                         However, IRS management did not provide
                                                      an official response to the draft report that
The Service Center Mainframe Consolidation
                                                      included the remaining recommendations.
(SCMC) Project’s goal of consolidating the
mainframe processing at ten service centers
                                                      The General Controls Environment
into two computing centers is a very complex
                                                      Over the Internal Revenue Service’s
task and requires extensive coordination and
                                                      Unisys 2200 Systems Can Be
effort by several contractors and IRS
                                                      Improved (Report No. 199920063)
functions.
                                                      The Unisys 2200 mainframe computers are an
While the Project is making significant
                                                      integral part of IRS’ tax processing system.
progress toward its goal, the IRS needs to
                                                      Virtually all transactions affecting a
ensure that future service center
                                                      taxpayer’s account are processed through
consolidations, technical contract
                                                      these systems. They house databases for
administration, and budget accounting are
                                                      on-line retrieval of taxpayer information;
improved. The auditors noted that the IRS
                                                      therefore, it is critical for the systems to have
had taken actions to define delivery orders
                                                      an effective general controls environment.
that resulted in cost savings of $19 million.
However, several procurements, estimated at           The Office of Audit reviewed the general
$7 million, were made without following               controls over IRS’ Unisys 2200 Operating
proper procurement procedures. In addition,           System Environment and concluded that the
the complete cost of the consolidation was not        general controls are adequate to protect
being effectively budgeted, captured and              sensitive data. However, there are several
reported by the SCMC Project Office. The              areas in which controls could be adhered to
auditors estimated that there were                    more uniformly, and where procedures should
approximately $1.07 million in unreported             be established to provide improved system
staffing costs in FY 1998 for the three sites         control, security, and standardization.
tested.                                               The auditors recommended several ways to
The Office of Audit recommended that IRS              improve controls over taxpayer data files and
management ensure:                                    the common system and database files. In
•   All critical operational and technical            addition, the auditors recommended:
    aspects of consolidation at computing             •   Modification of the control settings for
    centers and service centers are                       files that may potentially complicate the
    standardized, thoroughly tested,                      mainframe consolidation process.

                     Treasury Inspector General for Tax Administration
                                   September 30, 1999
                                                 14
                             Semiannual Report to the Congress



•   Development of a process that will                 IRS management agreed with the findings and
    improve the accountability of individuals          recommendations and has initiated
    using the system security user                     appropriate corrective action.
    identification.
•   Re-issuance of the policy for accounting           Limitations of the Automated
    for deviations of user access profiles from        Non-Masterfile and the Impact on the
    IRS standards.                                     Internal Revenue Service
                                                       (Report No. 093103)
•   Development of C2-level security
    documentation, security policies, and              The IRS uses the Automated Non-Masterfile
    documentation of risk factors for the              (ANMF) computer system to process tax
    Unisys consolidated mainframe                      returns and transactions that cannot be
    environment.                                       processed on its primary Masterfile computer
                                                       system. Each of the ten IRS service centers
IRS management agreed with the findings and            has a separate ANMF database that is not
recommendations and has initiated                      connected with any other ANMF system, or
appropriate corrective action.                         other IRS computer system.
Review of the Electronic Fraud                         As of September 30, 1997, the ANMF
Detection System (Report No. 093009)                   contained 101,216 balance due accounts
                                                       totaling over $14 billion. The auditors
The number of electronically filed tax returns         concluded that, overall, the transactions were
claiming fraudulent refunds has risen                  accurately input to the ANMF and to the
dramatically since electronic filing began in          accounting system. However, inherent
1986. As a result, the Electronic Fraud                processing problems resulted in the IRS not
Detection System (EFDS) was developed to               mailing annual reminder notices of balance
automate the screening process and identify            due accounts to taxpayers in violation of the
and review returns with the highest potential          Taxpayer Bill of Rights 2 (TBOR2). The
for fraud. EFDS improves the detection of              accounts also contained incorrect interest and
fraud by increasing data sources and                   penalty computations. The processing
enhancing scheme development for referral to           inefficiencies and errors resulted in undue
the districts for criminal prosecution.                taxpayer burden, increased operating costs,
The auditors concluded that while EFDS is a            and lost revenue.
significant improvement over the manual                The auditors also reported:
procedures previously used, there are still
changes that can be made to further improve            •   The ANMF contained many old accounts.
and manage EFDS. The auditors also found                   Over 6,700 accounts were over 10 years
discrepancies in the accounting records that               old and 220 were over 20 years old. The
amounted to $22.3 million in understated total             6,700 balance due accounts exceeded
costs. The Office of Audit recommended IRS                 $750 million in tax, penalty and interest.
management should:                                     •   The IRS did not establish the required
•   Strengthen existing security controls.                 “freeze” code (used to prevent the
                                                           issuance of refunds) on the related
•   Develop all EFDS applications and ensure               Masterfile accounts on 21,700
    the applications are properly functioning.             (34 percent) of the 64,000 individual
•   Implement controls to maintain accurate                accounts on the ANMF.
    and complete cost data for EFDS.                   •   The IRS did not issue a Statement for
                                                           Recipients of Interest Income,


                    Treasury Inspector General for Tax Administration
                                  September 30, 1999
                                                  15
                             Semiannual Report to the Congress



    Form 1099-INT, as required by law, to             Highlighted final audit reports include:
    report interest paid to taxpayers in
    27 percent of the 142 cases reviewed.             Increased Validation and Oversight of
    During the first nine months of FY 1997,          Year 2000 Minicomputer Conversion
    the IRS issued approximately 1,500                Efforts Are Needed to Strengthen
    refunds in which a Form 1099-INT                  Testing and to Avoid Further Delays
    should have been issued.                          (Report No. 199920054)
The Office of Audit recommended that the              The Office of Audit assessed IRS’ efforts to
IRS:                                                  prepare its minicomputer systems for the
                                                      century date change (CDC) and concluded
    •   Expedite changes to allow the
                                                      that the IRS has improved its management of
        processing of ANMF accounts on the
                                                      the minicomputer conversion effort.
        Masterfile.
                                                      Increased involvement by the CDC Project
    •   Consolidate the existing ANMFs.               Office has resulted in assignment of
IRS management agreed with the findings and           monitoring responsibility, identifying sites
recommendations and prepared requests for             where systems are located, issuance of
computer programs. These include programs             guidance for converting systems, and
to: correct programming errors in penalty and         development of conversion schedules.
interest computations; identify address               However, initial monitoring of the conversion
changes; and, freeze the refund on Masterfile         progress was based on self-reporting of
accounts where there is a related liability on        critical conversion data, with minimal on-line
the ANMF. In addition, the IRS plans to               validation. As a result, the Office of Audit
conduct a massive cleanup of old accounts on          identified weaknesses in systems testing and
the ANMF to determine if the accounts are             unmet target dates.
valid. The IRS also will generate annual
reminder notices in Calendar Year 1999.               The Office of Audit recommended that:

With these changes, the IRS will be in                •   The IRS properly classify the risk level
compliance with the law by issuing TBOR2                  for minicomputer systems that did not
notices and Forms 1099-INT. In addition,                  meet the January 1999 target conversion
receiving these notices will reduce taxpayer              date.
burden and could increase taxpayer                    • The CDC Project Office representatives
compliance in reporting interest income.                  should independently validate:
                                                          (1) conversion dates for systems that did
                                                          not meet the target, (2) testing performed
         Century Date Change
                                                          on each mission critical minicomputer
                                                          system, and (3) contingency procedures
The Office of Audit has conducted several
                                                          for all systems that were not compliant by
reviews to assess IRS’ efforts in ensuring all
                                                          March 31, 1999.
systems and programs are Y2K compliant.
Reviews focused on project management and             The audit resulted in increased oversight of
oversight, testing efforts and exchanging data        the minicomputer conversion effort. In
with outside parties.                                 addition, the audit identified weaknesses that
                                                      management is addressing to ensure that
                                                      minicomputer systems that process
                                                      electronically filed tax returns, answer
                                                      incoming taxpayer telephone calls, and



                    Treasury Inspector General for Tax Administration
                                  September 30, 1999
                                                 16
                             Semiannual Report to the Congress



process employee payroll will run in the next          systems that will not be included in the
century.                                               nationwide End-to-End test. They also
                                                       identified the need for the IRS to better
IRS management has agreed to all
                                                       coordinate its planning efforts for the
recommendations and will initiate corrective
                                                       End-to-End System Integration Test.
actions.
                                                       To improve the End-to-End testing, auditors
Review of the Internal Revenue                         recommended that IRS management:
Service’s Year 2000 End-to-End
                                                       •   Perform a detailed analysis of the IRS
System Integration Test Efforts –
                                                           systems inventory to assess the business
Overall Planning and Execution of
                                                           value and potential risk exposure of all its
Test 1 (Report No. 094002)
                                                           major systems and establish a priority
IRS created an off-line test environment to                ranking.
replicate its tax processing environment. The          •   Identify all key operations support
purpose of this test environment is to serve as            systems not selected for the nationally
a final phase for assessing Y2K compliance of              coordinated End-to-End System
IRS’ tax processing software, hardware and                 Integration Test.
communications capabilities. The
Information Systems’ Product Assurance                 •   Establish centralized oversight and
function controls this test along with                     control over the testing of key support
significant levels of contractor support.                  systems within the operations functions.
                                                       •   Mandate that key operations systems
Despite initial delays in planning and
                                                           owners use the Product Assurance test
conducting the End-to-End System
                                                           bed to perform their Y2K compliance
Integration Test activities, IRS’ Information
                                                           testing.
Systems Division made significant progress in
preparing an overall approach to conducting            IRS management agreed to two of the
the test. The auditors noted that the                  recommendations and has taken corrective
End-to-End System Integration Test Team                action. However, IRS management did not
met their limited objectives for executing             agree to perform a detailed analysis of the
Test 1. However, the Office of Audit                   business value and potential risk exposure of
identified the need for the IRS to prepare a           all major systems because all IRS systems
systematic risk analysis of its systems and            will be end-to-end tested. They also did not
provide improved oversight over key support            agree that the use of the Product Assurance


                                                                 TIGTA Audit Manager
                                                                 Vincent Dell’Orto was
                                                                 recognized at the May 1999
                                                                 Department of the Treasury
                                                                 Annual Awards Ceremony for
                                                                 his leadership and assistance in
                                                                 identifying critical issues
                                                                 relating to the IRS’ Year 2000
                                                                 efforts. Shown here is Treasury
                                                                 Secretary Lawrence Summers
                                                                 offering his congratulations to
                                                                 Mr. Dell’Orto.




                    Treasury Inspector General for Tax Administration
                                  September 30, 1999
                                                  17
                               Semiannual Report to the Congress



test bed should be mandated.                           IRS management concurred with the facts in
                                                       the report and has agreed to take corrective
Opportunities Remain for the Internal                  action.
Revenue Service to Further Minimize
the Risks Associated With
                                                              Processing Tax Returns and
Implementing Year 2000 Compliance
for External Trading Partners                               Implementing Tax Law Changes
(Report No. 095202)
                                                       The Office of Audit initiated various reviews
In 1996, IRS established the CDC Project               to evaluate IRS’ progress in effectively
Office with an objective to ensure that all            preparing for filing season activities.
systems are Y2K compliant by
                                                       A highlighted final report includes:
January 1, 2000. This requires close
coordination with many External Trading
Partners (ETPs). ETPs are organizations that           The Internal Revenue Service Needs to
                                                       Improve Information Systems Quality
exchange data with IRS, such as: state, local,
and foreign governments, banks, and other              Assurance Efforts Over Key Tax Law
federal agencies.                                      Changes for the 2000 Filing Season
                                                       (Report No. 199920066)
This review was a follow-up audit to a report
                                                       The Taxpayer Relief Act of 19971 (TRA 97)
issued in November 1998 (Report
                                                       contained over 800 I.R.C. amendments and
No. 091303). During the current audit, the
                                                       nearly 300 new provisions, most of which
auditors noted that the CDC Project Office
                                                       went into effect prior to the 1999 filing
has made considerable progress in identifying
                                                       season. As a result, the IRS was required to
ETPs and communicating the IRS’ Y2K
                                                       prepare its systems and programs to properly
standards to them. The Office of Audit
                                                       process tax return information mandated by
recommended continued emphasis in the
                                                       the new legislation for the 1999 filing season.
following areas:
                                                       At the same time, IRS had other initiatives for
•   Implementation of an oversight process to          which its limited programming resources
    ensure accurate ETP information. One               were needed. These initiatives included
    audit test showed that 22 percent of               consolidating the computer operations of ten
    exchange files sampled contained                   service centers into two computing centers
    inaccurate dates.                                  and preparing all IRS systems for Y2K
•   Delayed project milestones should be               compliance.
    completed prior to the final phase of the          The Office of Audit reported that the IRS
    End-to-End system testing. One audit test          incorporated key legislative changes into
    showed that approximately 12 percent of            programs and ensured programs were tested
    the files remain untested.                         and implemented. However, for the 2000
Reliable management information is needed              filing season, the IRS faces even tighter time
to assure that IRS’ tax systems will accurately        and resource constraints due to the Y2K
and timely process returns and collect revenue         conversions and End-to-End testing.
after December 31, 1999. Taxpayer burden               Therefore, the Office of Audit recommended
will increase if the IRS’ tax systems are not          that:
timely prepared to process returns and collect         •      Information Systems management ensure
revenue.                                                      the Filing Season Project Office has

                                                       1
                                                           Pub. L. No. 105-34, 111 Stat. 788

                    Treasury Inspector General for Tax Administration
                                  September 30, 1999
                                                  18
                              Semiannual Report to the Congress



    controls in place to monitor and oversee            telephone assistors were not adequately
    the progress of all filing season changes.          prepared to answer current year tax planning
•   Product Assurance Division management               questions. In addition, IRS’ answers to
    ensure that the progress of testing for the         130,000 e-mail questions were not always
    2000 filing season is consistently                  complete, concise, or clear.
    monitored and reported.                             The Office of Audit recommended that the
•   Any testing delays need to be timely                IRS could further its goal of improving
    reported and discussed at Executive                 customer service to taxpayers by:
    Steering Committee (ESC) and weekly                 •   Ensuring prompt distribution of new tax
    filing season meetings.                                 law materials to telephone assistors.
IRS management agreed with the findings and             •   Establishing a process that ensures all
has initiated corrective actions. However,                  telephone assistors are adequately trained.
Product Assurance Division management did
                                                        •   Establishing uniform program policies
not believe it would be appropriate to raise all
                                                            and procedures that will ensure quality
program testing delays to the ESC.
                                                            responses to taxpayers’ e-mail questions.
                                                        IRS management agreed to the
            Customer Service
                                                        recommendations and has initiated corrective
                                                        actions.
The Office of Audit conducted reviews to
evaluate whether the IRS is improving
operations and providing taxpayers with                 Protecting Revenue and Minimizing
quality customer service in accordance with                      Tax Filing Fraud
Congressional and administrative direction.
A highlighted final report includes:                    The Office of Audit conducted reviews to
                                                        assess the IRS’ efforts to properly protect
Improvements Can Be Made in                             revenue and minimize tax filing fraud.
Providing Assistance to Taxpayers                       Highlighted final audit reports include:
(Report No. 199940065)
This review was initiated as part of the Office         Weak Internal Controls Exposed
of Audit’s coverage of the implementation of            Taxpayer Payments to Embezzlement
key legislation and National Performance                in the Delaware-Maryland District
Review recommendations affecting the                    (Report No. 190103)
1999 filing season. The auditors evaluated              The Office of Audit conducted this review in
the effectiveness of the IRS Customer Service           conjunction with the Office of Investigations’
Division’s efforts to ensure employees were             inquiry involving the embezzlement of
prepared to assist taxpayers with TRA 97 tax            delinquent taxes collected by a revenue
law questions. The auditors also assessed the           officer. Approximately $77,000 was
IRS’ TeleTax, Internet web site, toll-free              embezzled by a revenue officer as a result of
telephone number, and e-mail activities.                improper and undetected adjustments to
The review showed that the IRS’ toll-free               taxpayer accounts. The review did not
automated telephone tax and refund                      identify any similar instances of
information system (i.e., TeleTax) and                  embezzlement by other revenue officers in the
Internet web site provided accurate                     district.
information on key TRA 97 provisions.                   IRS district management agreed that their
However, the IRS Customer Service                       procedures lacked proper separation of duties.

                     Treasury Inspector General for Tax Administration
                                   September 30, 1999
                                                   19
                                 Semiannual Report to the Congress



New procedures have been implemented to                 To address tax policy and operational issues,
address these weaknesses. IRS district                  the Office of Audit recommended that IRS
management has taken corrective action.                 management:
Training was conducted for all persons
                                                        •   Bring legal issues to the attention of the
involved in the processing of taxpayer
                                                            Joint Committee on Taxation for the
account adjustments. IRS management also
                                                            Confidentiality of Tax Information Study.
conducted quarterly post reviews to assure
that proper guidelines were followed.                   •   Bring to the attention of the IRS
                                                            Commissioner the taxation of illegal
The Internal Revenue Service’s                              aliens.
Individual Taxpayer Identification                      •   Implement revenue protection actions.
Number Program Was Not                                  •   Correct operational conditions.
Implemented in Accordance with
Internal Revenue Code Regulations                       IRS management generally agreed with the
(Report No. 094505)                                     report recommendations. However, the
                                                        revenue protection actions are seen as
The IRS issues Individual Taxpayer                      requiring legislative remedy. The Office of
Identification Numbers (ITINs) to                       Audit disagreed that IRS management should
undocumented aliens to improve nonresident              not take any action on this recommendation.
alien compliance with tax laws. This IRS
practice seems counter-productive to the
                                                        Controls Should Be Strengthened Over
Immigration and Naturalization Service’s
                                                        Business Taxpayer Accounts with
(INS) mission to identify undocumented
                                                        Frozen Million Dollar Refunds
aliens and prevent unlawful alien entry.
                                                        (Report No. 199940057)
The Office of Audit reviewed the ITIN                   The Office of Audit performed a limited
Program for conflicts with laws and                     review to determine whether the IRS was
regulations, its impact on other IRS programs,          properly releasing the automatic hold placed
and operational effectiveness. The review               on business taxpayer accounts when a credit
indicated that the ITIN Program will                    balance reaches an amount that would cause a
adversely affect tax administration. The                refund of $1 million or more. Limited
program raises several concerns, from tax               analysis showed that the IRS could provide
policy to operational implementation.                   better customer service and reduce interest
The auditors reported:                                  expense by ensuring the holds are properly
                                                        and timely released. The IRS incurred
•     The ITIN Program conflicts with a                 additional interest expense of approximately
      general statute, The Illegal Immigration          $17.5 million on 44 business taxpayer
      Reform and Immigrant Responsibility Act           accounts that had a “Million Dollar Refund
      of 19961.                                         Freeze.”
•     The IRS disregarded its own procedures
      and did not verify both the identity and          The auditors advised IRS management of
      foreign status of the applicant. This             these conditions in an April 1998
      action resulted in over 834,000 applicants        memorandum. The memorandum included a
      receiving an ITIN without providing               list of 411 business taxpayer accounts with
      documentation establishing foreign status.        this freeze condition.
      Of these, over 340,000 applicants                 The Office of Audit also recommended that
      identified themselves as illegal aliens.          service center management:

1
    Pub. L. No. 104-208, 110 Stat. 3009-546

                        Treasury Inspector General for Tax Administration
                                      September 30, 1999
                                                   20
                            Semiannual Report to the Congress



•   Modify the “Million Dollar Refund             •   Enhance current IRS procedures to
    Freeze” indicator program in the IRS              identify and expedite the resolution of a
    computer system.                                  “Million Dollar Refund Freeze.”
•   Generate follow-up transcripts for            The IRS Executive Officer for Service Center
    business taxpayer accounts with a             Operations responded to the interim
    “Million Dollar Refund Freeze”                memorandum and began immediate corrective
    periodically.                                 action to resolve the noted “freeze”
•   Ensure that the “Million Dollar Refund        conditions. However, IRS management did
    Freeze” is shown on critical IRS              not respond to the draft report which
    computer display screens.                     contained the four highlighted
                                                  recommendations.




                    Treasury Inspector General for Tax Administration
                                  September 30, 1999
                                             21
This Page Left Intentionally Blank
                              Semiannual Report to the Congress




             Treasury Inspector General for Tax Administration
                          Office of Investigations

INTRODUCTION                                            During this six-month reporting period, the
                                                        Office of Investigations completed
The Office of Investigations is responsible for         603 employee misconduct investigations.
the development and execution of the
                                                        The Office of Investigations also investigates
nationwide investigative programs relating to
                                                        individuals who attempt to interfere with or
oversight of IRS activities and operations.
                                                        corrupt the administration of the federal
The Office of Investigations is responsible for         income tax system, to include investigations
protecting the integrity of the IRS and for             of bribery, assault, threat, theft and
protecting employees of the IRS and related             embezzlements. During this reporting period,
entities against external attempts to corrupt or        the Office of Investigations completed
threaten them when carrying out their                   1,039 investigations involving these types of
responsibilities. This includes investigating           allegations.
allegations of criminal wrongdoing and                  TIGTA special agents routinely conduct
administrative misconduct by IRS employees.
                                                        integrity awareness presentations for IRS
Other areas of responsibility include:                  employees and various professional
                                                        organizations. These presentations are
•   Administering programs to protect IRS
                                                        designed to heighten awareness of integrity
    employees from violence.                            and to provide a deterrent effect against fraud
•   Operating a national complaints center,             and abuse involving IRS programs and
    including a hotline, to receive and process         operations. During this reporting period, the
    allegations of fraud, waste or abuse.               Office of Investigations conducted
•   Providing forensic examination of                   368 presentations for 17,178 individuals.
    documentary evidence.
•   Providing technical and investigative               PROTECTION OF TAXPAYERS AND
    assistance, equipment, training, and other          IRS EMPLOYEES
    specialized services to enhance
    investigative operations.                           When Congress passed RRA 98, it created
•   Administering a proactive program to                essential taxpayer rights and protections
    detect and deter fraud in IRS programs              against IRS employee misconduct and abuses.
    and operations.                                     The Office of Investigations is dedicated to
                                                        serving the public by conducting
                                                        investigations that protect the taxpayers from
INVESTIGATIVE ACTIVITIES                                employees who commit criminal and
                                                        administrative violations.
The Office of Investigations focuses on
                                                        The Office of Investigations is also committed
investigating allegations of administrative or
                                                        to protecting and supporting IRS employees
criminal misconduct that may involve IRS
                                                        as they carry out the mission of the IRS. IRS
employees, such as unauthorized access and
                                                        employees have the right to work in a safe
disclosure of confidential taxpayer
                                                        and trustworthy environment. TIGTA is
information, bribery, financial fraud, false
                                                        dedicated to ensuring taxpayers and IRS
statements, and abuse of taxpayer rights.
                                                        employees the highest degree of integrity,

                     Treasury Inspector General for Tax Administration
                                   September 30, 1999
                                                   23
                               Semiannual Report to the Congress



fairness and trust in our tax administration             Section 1203 Violations
system.
                                                         Section 1203 of RRA 98 addresses a
                                                         Congressional objective to ensure the
Complaint Management Division
                                                         protection of taxpayers and IRS employees
During the 1998 Senate Finance Committee                 from intentional, willful misconduct by IRS
hearings involving IRS activities, including             employees. RRA 98 provides for the
the activities of the former Inspection Service,         termination of employees who commit
the IRS was criticized for its inability to track        specific categories of misconduct (see
the receipt and disposition of taxpayer                  Appendix V for a summary of Section 1203
complaints, including any subsequent action              standards). During this reporting period,
taken on those complaints. Accordingly,                  TIGTA initiated 122 investigations relating to
TIGTA developed a new complaint tracking                 alleged 1203 violations. Of these, 101 are
system that provides a centralized accounting            currently ongoing, 4 were closed to file and
of all complaints received by TIGTA and the              17 have been closed and referred to the IRS
dispositions of those complaints. This                   for administrative adjudication. The IRS
system, the Investigations Management                    terminated three employees under Section
Information System Complaint Management                  1203 during this reporting period.
Screen, became operational on July 19, 1999.             In addition, TIGTA received 365 information
This system has the capability to document               items relating to Section 1203 that were
and track complaints where there are multiple            provided to IRS managers for action, as they
subjects.                                                deemed appropriate. These information items
To receive complaints of wrongdoing by IRS               are complaints or allegations where TIGTA
employees, TIGTA operates a toll-free                    determined that an investigation was not
telephone number, an e-mail account and a                warranted.
central post office box. Allegations are
received at TIGTA’s Complaint Management                 IRS Employee Found Guilty of Battery
Division, which acts as a national center to             and Resigns Position Based on a 1203
process and track allegations of fraud, waste,           Violation
abuse and other forms of wrongdoing.                     On May 6, 1999, an IRS employee was found
To assure TIGTA has all the relevant                     guilty of a charge of battery. The employee
information available to evaluate a complaint,           also resigned from her IRS position prior to
complainants are interviewed, to the extent              administrative action based on a 1203
possible, by TIGTA personnel. Complainants               violation related to this incident. TIGTA
are also provided with a Complaint Number                initiated an investigation after several police
which can be used to track the complaint’s               officers reported that an IRS employee had
disposition.                                             threatened them during a traffic stop.
                                                         During the traffic stop, the employee
During this reporting period, TIGTA received             identified herself as an IRS employee,
5,092 complaints. Of these complaints,                   displayed her IRS credentials, threatened the
2,071 (41 percent) warranted further                     officers with IRS audits and used abusive
investigation (see Appendix II).                         language. After scribbling her name on the
                                                         traffic citation, the IRS employee threw the
                                                         ticket book and pen at an officer, striking the
                                                         officer. TIGTA special agents worked with
                                                         the local authorities on the investigation. The
                                                         IRS employee was sentenced to six months

                     Treasury Inspector General for Tax Administration
                                   September 30, 1999
                                                    24
                                  Semiannual Report to the Congress



probation and ordered to pay court costs in the        operational in March 1999, and replaced the
amount of $263 and attend an anger                     antiquated IRS Electronic Audit Research
management program.                                    Log that was in operation in the ten IRS
                                                       service centers.
Strategic Enforcement Division                         The UNAX Detection Project continues to
                                                       identify solid leads. During the reporting
The Strategic Enforcement Division (SED),              period, TIGTA primarily used ATLAS to
formerly called the Centralized Case                   identify 478 leads of potential unauthorized
Development Center, executes an aggressive             access to tax information by IRS employees.
proactive effort to detect fraud and misuse in         Analysis of these leads has resulted in
IRS computer systems and operations. The               175 referrals to TIGTA field offices for
program uses advanced computer technology              investigation of violations of the Taxpayer
and computer matching to identify criminal             Browsing Protection Act of 19972.
violations modeled from criteria identified in         As a result of this ongoing project, several
prior investigations.                                  UNAX cases have been further developed and
SED’s operation is an intense, collaborative           identified fraud issues in addition to the
effort between auditors, special agents and            unauthorized access issues. These issues
computer programmers. SED has been                     involved potentially fraudulent returns and
successful in identifying possible fraudulent          adjustments, and unauthorized disclosure of
activities and control weaknesses in IRS               tax information. Some examples of these
operations.                                            cases are highlighted on page 28.

National Integrity Projects                            TECHNICAL AND FORENSIC
The principal component of SED’s operation             SUPPORT DIVISION
is the national integrity project. Projects are
initiated from information developed during a          To support its operations, the Office of
successful investigation. The methodology of           Investigations maintains the Technical and
a crime becomes the basis for developing               Forensic Support Division (TFSD). TFSD is
proactive computer database applications that          responsible for directing programs concerning
will identify other individuals who may be             Technical Services, the Forensic Computer
perpetrating the same crime. These proactive           Laboratory (FCL) and Forensic Science
national integrity projects are included in            Laboratory (FSL). Each TFSD program
Computer Matching Act1 agreements                      provides technical expertise throughout the
approved by the Treasury Department's Data             development and the adjudication process of
Integrity Board and published in the Federal           investigations.
Register.
                                                       Technical Services
UNAX Detection Project
                                                       Technical Services is responsible for
The UNAX Detection Project is SED’s most
                                                       providing technical and investigative
aggressive national integrity project. The
                                                       assistance, equipment, training, and other
Audit Trail Lead Analysis System (ATLAS)
                                                       specialized services to enhance TIGTA’s
is designed to detect potential unauthorized
                                                       investigative activities. Technical Services’
accesses to electronic taxpayer records on IRS
                                                       personnel provides crucial support in the
computer systems. ATLAS became
1                                                      2
    Pub. L. No. 101-56, 103 Stat. 149                      I.R.C. § 7213A

                        Treasury Inspector General for Tax Administration
                                      September 30, 1999
                                                  25
                             Semiannual Report to the Congress



collection and enhancement of evidence.               Forensic Computer Laboratory
Technical Services provides audio and video
investigative equipment and support in                The FCL provides TIGTA special agents with
collecting evidence. Some examples of                 on-site expertise and assistance during the
significant investigative support provided by         search and seizure of computers and computer
Technical Services include:                           data. The FCL directs investigations
                                                      involving external "hacking" or intrusion into
•   An individual was captured on videotape,
                                                      IRS computer systems. The FCL maintains
    through the use of covert video
                                                      an investigative computer research and
    equipment, offering a “silent” bribe to an
                                                      reference facility to enhance technical skills in
    IRS employee by passing notes and
                                                      the investigative use of computers.
    without talking.
                                                      Furthermore, the FCL formulates and
•   A covert video was utilized to collect            conducts computer investigative training for
    evidence of an IRS employee making                TIGTA employees and performs tests of the
    $13,000 in telephone calls to sexually            security of automated information systems
    oriented “900” numbers from a                     nationwide. Examples of FCL support
    government office.                                include investigating threats against IRS
•   A covert video was instrumental in                employees and other government officials
    capturing an IRS service center employee          made through the Internet. Support also
    stealing cash from IRS mail during a              includes safeguarding and inspecting IRS
    remittance test.                                  computer systems against outside intrusions
•   A former IRS employee was observed,               through electronic means.
    though the use of covert video,
    committing Worker's Compensation                  The following is a significant case developed
    fraud.                                            with support from the FCL.
•   An IRS employee was observed, through             Joint Procurement Fraud Task Force
    the use of covert video and audio                 Investigation Results in IRS Employee
    equipment, preparing and falsifying               and Co-Conspirators Entering Guilty
    taxpayer documents.                               Pleas for Bribery
•   Covert video and audio equipment was
                                                      A procurement fraud task force comprised of
    instrumental in monitoring a tax preparer
                                                      personnel from TIGTA’s Office of
    soliciting bribes from an individual in
                                                      Investigations and Office of Audit, IRS’
    return for preparing and submitting false
                                                      Criminal Investigation Division, and IRS’
    IRS tax documents.
                                                      Examination Division determined that an IRS
                                                      employee accepted bribe payments in
                                                      exchange for directing IRS contracts to two
                                                      companies. As a Contracting Officer’s
                                                      Technical Representative, the employee had a
                                                      role in awarding contracts to perform
                                                      computer maintenance. The bribe payments
                                                      were made to the employee by two
                                                      intermediaries, as well as the president of one
                                                      of the companies. One of the intermediaries
                                                      was the employee’s former father-in-law.
                                                      The scheme called for the employee and
                                                      intermediaries to receive a percentage of the


                    Treasury Inspector General for Tax Administration
                                  September 30, 1999
                                                 26
                               Semiannual Report to the Congress



gross billings from the contracts. The                    evidence to accurately record the results of
intermediaries received payments from the                 examination and to create courtroom
two companies, and in turn, paid the                      demonstration charts.
employee his share. Between 1991 and 1996,
                                                          During this six-month period, the FSL
the companies received approximately
                                                          received 80 case submissions, issued
$57 million in contracts from IRS. The FCL
                                                          57 reports of laboratory examination, and
conducted analysis of computer data secured
                                                          evaluated 3,200 items of physical evidence.
as a result of a search and seizure.
                                                          Included in the evidence analyzed was
As of August 30, 1999, the now former IRS                 $14.4 million in tax payments, tax refunds
employee has pled guilty to bribery and filing            and other financial documents.
a false income tax return and was sentenced to
                                                          During the reporting period, the FSL
37 months imprisonment, followed by 3 years
                                                          examined a number of cases that resulted in
supervised release. The employee’s former
                                                          confessions and court rulings in favor of the
father-in-law pled guilty to conspiracy and
                                                          government. Some examples include:
paying bribes and gratuities and was
sentenced to 46 months imprisonment. The                  •    Handwriting examinations identified a
other intermediary pled guilty and is currently                suspect as the probable author of letters
serving a 67-month sentence. One of the                                     sent to a news publisher
company presidents pled guilty to                                           describing threats to kill IRS
paying unlawful kickbacks in                                                employees and federal judges.
conjunction with a contract with the                                        A latent print examination
Federal Aviation Administration (FAA),                                      identified the suspect's
and is awaiting sentencing.                                                 fingerprints on the pages of the
Investigation of the FAA contract was                                       threats. The case went to trial
also a result of the task force.                                            and the defendant was found
                                                                            guilty. The defendant was
                                                                            sentenced to 37 months
Forensic Science Laboratory
                                                                            imprisonment, followed by
                                                Developed latent  print     3 years of supervised release.
Criminal investigations often depend
upon the forensic analysis of evidence.
                                                  on threat letters.
                                                                            • On June 28, 1999, two
Fingerprint and handwriting examination,                       former   IRS  employees were arraigned on
photography and chemical analysis are just a                   charges   involving  the theft and
few of the laboratory tools that assist special                destruction   of IRS  tax returns, records,
agents in identifying subjects.                                and other government property. The
                                                               shredded documents were painstakingly
The FSL supports field investigations through                  reassembled by the FSL and were found
timely processing of documentary, physical                     to include original tax returns, as well as
and chemical evidence. Additional high-tech                    other IRS documents and files. Both IRS
equipment moves the FSL toward                                 employees’ fingerprints were identified
accreditation and provides expanded services                   on the reconstructed documents. As part
to special agents. The FSL recently added a                    of a negotiated plea agreement, one
new digital camera to its laboratory. The                      employee pled guilty to one count of
digital camera provides state-of-the-art                       destruction of government property. The
investigative support for the examination of                   other IRS employee pled guilty to one
physical evidence, from documents to                           felony count of theft of government
fingerprints. This camera is a stationary unit                 property. As part of their plea
capable of capturing top quality images of                     agreements, the United States Attorney's


                      Treasury Inspector General for Tax Administration
                                    September 30, 1999
                                                    27
                              Semiannual Report to the Congress



    Office agreed not to file additional                    obtaining handwriting exemplars from the
    charges involving theft, destruction of                 suspected writers. Upon its comparison
    records, failing to perform official duties,            with the investigative documents, the FSL
    and making false statements to                          identified two of the three principals as
    investigators.                                          authors of the questioned material. The
•   The FSL examined evidence in a                          defendants pled guilty in July 1999.
    homicide case and was able to link the              •   An individual claimed that he gave an
    suspects to the evidence. Attempts to                   IRS revenue officer, now deceased, cash
    decipher illegible entries on an ATM                    in the amount of $22,000 as full payment
    receipt were made by a State Crime Lab                  for his tax liability. IRS records reflected
    and the Federal Bureau of Investigation,                no such payment. The individual
    with little success. The FSL, using a                   contended that he owed no taxes and as
    sensitive infrared camera and imaging                   proof, produced photocopies of two IRS
    software, examined the receipt and was                  notices, each with a handwritten notation
    able to decipher additional entries. The                indicating taxes paid in full. An
    FSL examiner testified for 3 1/2 hours                  investigation, including forensic analysis
                                                            of handwriting on purported receipts,
                                                            found no evidence supporting the
                                                            individual’s claim that the revenue officer
                                                            had made the handwritten notations. A
                                                            TIGTA FSL examiner provided expert
                                                            testimony in United States District Court.
                                                            The government was pursuing a civil
                                                            collection suit against the individual. The
                                                            Petit Jury ruled in favor of the
                                                            government.
       ATM receipt evaluated by the FSL
            using digital imaging.
                                                        SIGNIFICANT INVESTIGATIONS
    in a pretrial hearing where the defendant
    motioned to suppress the FSL analysis in            Disclosure and Improper Computer
    this death penalty murder case. The judge                 Access Investigations
    denied the defendant's motion. When the
    defendant was again confronted with the             The following investigations resulted from
    TIGTA laboratory report, he admitted to             national integrity projects, including the
    his involvement in the crime, and                   UNAX Detection Project, and investigative
    implicated the second defendant, the                strategies involving abuse of IRS computer
    victim's nephew, as the one who                     systems, unauthorized accesses and disclosure
    committed the murder. The defendant                 of confidential taxpayer records by IRS
    pled guilty to third degree murder and the          employees.
    nephew pled guilty to first degree murder.
                                                        IRS Employee Indicted for
•   A joint investigation by TIGTA and IRS’             Unauthorized Access of a Federal
    Criminal Investigation Division involved            Computer in Furtherance of a Criminal
    a kickback scheme related to a FAA                  Act
    contract. Due to the varied content of the
    investigative documents, the FSL                    An IRS service center employee was indicted
    provided guidance to investigators in               on August 3, 1999, for unauthorized access of


                     Treasury Inspector General for Tax Administration
                                   September 30, 1999
                                                   28
                              Semiannual Report to the Congress



a federal computer in furtherance of a                  employee. During the investigation, TIGTA
criminal act. Based on that charge, the                 developed information that the IRS employee
employee’s related criminal acts, solicitation          also submitted false statements to maintain a
for murder, intimidation of a witness, and              residence that was subsidized by the federal
armed robbery, were also charged federally.             government. During a joint investigation with
                                                        the Department of Housing and Urban
TIGTA’s investigation began after local
                                                        Development Office of Inspector General, it
police arrested two individuals for an
                                                        was determined the IRS employee defrauded
attempted bank robbery. Following the arrest,
                                                        the federal government of approximately
one of the individuals admitted attempting to
                                                        $15,000 in rent subsidies during 1994, 1995
rob the bank at the direction of an unidentified
                                                        and 1996. The employee resigned from the
IRS employee. The individual also admitted
                                                        IRS during the investigation. The employee
that the IRS employee asked him to kill a
                                                        entered a guilty plea to the charges on
witness against the employee in a criminal
                                                        August 3, 1999.
matter, but that the individual refused.
TIGTA was contacted by the local police and
                                                        IRS Employee Sentenced for
advised of the unidentified IRS employee’s
                                                        Disclosing Confidential Information
involvement.
After TIGTA determined the identity of the              On June 3, 1999, an IRS employee was
IRS employee, it was further determined that            sentenced to two years probation and ordered
the employee had been charged with the                  to pay a $1,000 fine and a $100 special
gunpoint robbery of a taxpayer making a bank            assessment after pleading guilty to disclosing
deposit of business receipts. The employee              confidential information. TIGTA’s
then used IRS computer systems to                       investigation revealed that an IRS employee
improperly access the taxpayer’s account.               was recommending an accountant to
The employee used the information to further            taxpayers under collection activity by the
his attempts to intimidate and silence her.             employee. TIGTA identified 12 taxpayers
Due to the severity surrounding the improper            who were clients of the accountant and whose
use of IRS computer systems, the United                 tax records were accessed on multiple
States Attorney’s Office assumed jurisdiction           occasions in an unauthorized manner by the
of all of the employee’s criminal acts. The             employee. With the accountant’s
employee was terminated from IRS                        cooperation, it was determined that for the last
employment.                                             several years the accountant prepared federal
                                                        and state tax returns for friends and relatives
IRS Employee Pled Guilty to False                       of the employee at no cost. The accountant
Statement Charges                                       did this in exchange for tax information and
                                                        records on his clients. The accountant
On April 7, 1999, an IRS employee was                   confirmed that the employee had
charged in a three-count indictment for false           recommended several clients to the
statements and was subsequently arrested by             accountant’s practice. One taxpayer told
TIGTA special agents. An investigation was              TIGTA special agents that he retained the
initiated after TIGTA identified an improper            accountant based on the employee’s
computer access by an IRS employee to the               recommendation thinking that it would be
account of a relative. The investigation                beneficial in resolving his tax matters. The
revealed that the IRS employee made                     IRS employee retired during the investigation.
170 unauthorized computer accesses to the tax
accounts of 20 individuals identified as
friends, relatives and neighbors of the


                     Treasury Inspector General for Tax Administration
                                   September 30, 1999
                                                   29
                              Semiannual Report to the Congress



IRS Employee Pled Guilty to                            required him to resign from his position with
Disclosing Confidential Information                    the IRS and not seek re-employment. The
                                                       employee was indicted by a federal grand jury
On June 22, 1999, an IRS employee pled
                                                       on two counts of exceeding his authorized
guilty to one count of disclosing confidential
                                                       access to a federal interest computer.
information and was subsequently sentenced
                                                       TIGTA’s investigation disclosed that the
to one year probation. This investigation was
                                                       employee made unauthorized computer
initiated after the United States Attorney’s
                                                       accesses of the Treasury Enforcement
Office reported that an IRS employee may
                                                       Communications System (TECS). TECS is a
have disclosed confidential information
                                                       computer system designed to identify
regarding an IRS criminal investigation and
                                                       individuals involved or suspected of
federal grand jury investigation to the subject
                                                       involvement in violation of the laws of the
of the investigation and to a third party. Both
                                                       United States. The employee utilized TECS
persons were alleged to be personal friends of
                                                       on multiple occasions to research confidential
the subject.
                                                       information regarding a taxpayer and his
The investigation determined the employee              business.
contacted the third party and disclosed that
their mutual friend was the subject of a
criminal investigation and that they discussed
                                                                Bribery Investigations
how best to inform their friend. The
                                                       As a result of the frequent contacts IRS
employee and the third party then met with
                                                       employees have with taxpayers, their
the subject of the investigation and had a
                                                       positions and responsibilities make them
“hypothetical” discussion during which the
                                                       potential targets for bribery attempts. Their
subject was informed he was in fact the
                                                       positions also provide opportunities to extort
subject of a criminal investigation. It was
                                                       and solicit bribes from taxpayers and to
also determined that the employee contacted
                                                       conspire with individuals who would threaten
the third party again and informed him of
                                                       the integrity of the tax administration process.
scheduled investigative activity regarding the
subject. The IRS employee retired while                Bribery is often a focus of TIGTA’s integrity
under investigation.                                   awareness presentations. IRS employees are
                                                       educated on how to recognize bribe overtures
IRS Employee Indicted for                              and their responsibilities in reporting bribe
Unauthorized Access to IRS Computer                    attempts. TIGTA also educates employees
System                                                 about their responsibility to maintain a high
                                                       standard of integrity. TIGTA presentations
In June 1999, an IRS employee was indicted             have a deterrent effect and could dissuade
by a federal grand jury on eight counts of             employees from taking inappropriate
unauthorized accesses to tax return                    advantage of their positions.
information. The investigation confirmed that
the employee had no authorized reason to               During this reporting period, the Office of
access the accounts. On August 11, 1999, the           Investigations completed 49 bribery
employee pled guilty to unauthorized access.           investigations.

An IRS Employee Entered Pretrial                       IRS Employee Assisted Car Broker in
Agreement for Unauthorized Access to                   $20,000 Bribe Pay-Off to Cooperating
a Federal Computer                                     Revenue Agent
On May 13, 1999, an IRS employee entered               On June 9, 1999, an IRS employee and a car
into a 12-month pretrial agreement that                broker were indicted by a federal grand jury

                     Treasury Inspector General for Tax Administration
                                   September 30, 1999
                                                  30
                              Semiannual Report to the Congress



for bribery and conspiracy. The investigation          employee bribes for negating their delinquent
began when TIGTA agents received                       tax liabilities. Three of the four individuals
information alleging that an IRS employee,             were sentenced to a total of 31 months
behind in rent payments, had threatened her            imprisonment, 8 years supervised release and
landlady with an IRS audit if further attempts         $22,000 in fines. The fourth individual is
to collect the rent and/or eviction procedures         awaiting sentencing.
were undertaken. It was alleged that the
employee had accessed the IRS computer                 Five Individuals Pled Guilty to Bribery
system for tax account information of the              Charges
landlady and property owner. The
                                                       In July and August 1999, four individuals and
investigation confirmed the employee's threats
                                                       an enrolled agent were sentenced after
of IRS retaliation against the landlady and
                                                       pleading guilty to bribery charges. The
improper access to the tax accounts.
                                                       investigation began after an IRS employee
Subsequently, the employee initiated contacts          reported a possible bribery overture. The
with a revenue agent and suggested that if the         enrolled agent and his client paid a total of
revenue agent could possibly help the car              $15,000 to the IRS employee for a fictitious
broker, the revenue agent could receive a car.         tax examination report. The enrolled agent
The revenue agent contacted TIGTA and                  told the IRS employee that he had other
cooperated in the investigation.                       clients that would need help if they were
The IRS employee introduced the revenue                audited. A review of tax returns prepared by
agent to the car broker who offered $20,000            the enrolled agent was conducted to identify
to secure his IRS audits and prepare                   other questionable returns. Audits of two
fraudulent reports, and another $10,000 to             returns resulted in bribes being paid to a
initiate an audit on a former business partner.        second cooperating IRS employee. To
The IRS employee insisted to the revenue               eliminate any taxes owed, one individual and
agent that she deserved half of every bribe            his wife paid $1,300 and the other individual
payment as a finder’s fee. The car broker              paid $2,250 in bribes to the IRS employee.
paid $20,000 to the revenue agent in return            The enrolled agent received six months jail
for fraudulent audit reports. TIGTA special            time, two years supervised release and a
agents arrested the IRS employee and the car           $2,000 fine. The initial client received eight
broker on June 10, 1999.                               months jail time, two years supervised release
                                                       and a $2,000 fine. The individual and his
Four Individuals Pled Guilty to Bribery                wife each received two years probation,
On July 26, 1999, the last of four individuals         including five months home detention. The
entered a guilty plea to federal bribery               last individual received two years probation
charges. The four individuals paid a                   and a $1,000 fine.
cooperating IRS employee bribes totaling
$68,080 for negating approximately $675,000
in delinquent tax liabilities. One individual            Theft, Embezzlement and Fraud
offered to pay the IRS employee a bribe for                       Investigations
negating his delinquent tax liabilities. The
bribe was subsequently paid to the                     TIGTA investigates incidents of theft,
cooperating employee. This individual then             embezzlement, and fraud committed by both
introduced three additional individuals to the         internal and external sources. TIGTA also
cooperating IRS employee. These individuals            investigates incidents of impersonation where
also offered and paid the cooperating IRS              individuals attempt to defraud taxpayers.


                     Treasury Inspector General for Tax Administration
                                   September 30, 1999
                                                  31
                              Semiannual Report to the Congress



Major Tobacco Company Pled Guilty to                    bank fraud and credit card fraud. The
Illegal Smuggling, Forfeited $10 Million                investigation was initiated from information
and Fined $5 Million                                    developed from investigations of thefts of tax
                                                        remittances from a lockbox facility. Lockbox
On July 9, 1999, a major tobacco company
                                                        facilities receive and process tax payments
forfeited $10 million to federal and state
                                                        and credit the payments to a depository
governments, over half of which was
                                                        clearing account for subsequent transfer to the
deposited into the United States Treasury
                                                        IRS. The investigation revealed that the
Asset Forfeiture Fund, after the company pled
                                                        individuals purchased the stolen checks from
guilty to charges of illegal smuggling. The
                                                        a variety of sources and deposited the checks
company fraudulently transported and sold
                                                        in bank accounts that were established in
cigarettes within the United States that had
                                                        fictitious or assumed identities. The
been intended for exporting. The company
                                                        individuals depleted the funds before the
was fined $5 million. There have been more
                                                        taxpayers or IRS knew that the checks were
than 20 individual felony convictions of
                                                        stolen. The investigation revealed that the
participants in the operation. TIGTA
                                                        individuals were responsible for over
participated in the multi-agency task force
                                                        $1.2 million of fraudulent activities. Two of
investigating the smuggling operation because
                                                        the individuals were in the process of
of allegations regarding an IRS employee. It
                                                        preparing false identity documents to aid them
was alleged that an employee was misusing
                                                        in the fraudulent use of credit cards that were
IRS computers in connection with the
                                                        in their possession when they were arrested.
operation; however, the employee was cleared
                                                        Six of the individuals pled guilty to the
of these allegations.
                                                        charges and three individuals are fugitives.
Two IRS Employees Pled Guilty to
                                                        IRS Employee Charged With Wire
Theft of IRS Tax Remittances
                                                        Fraud, Money Laundering and Filing
Two IRS service center employees entered                False Tax Returns
guilty pleas after being indicted on federal
                                                        On July 22, 1999, a federal grand jury
charges of theft of public money and theft of
                                                        indicted an IRS employee on 48 counts for
mail. A proactive initiative to detect thefts of
                                                        violations of wire fraud, money laundering
taxpayer remittances identified the two
                                                        and filing false tax returns. The employee’s
employees that inappropriately handled
                                                        wife, a night manager at a local grocery store,
controlled tax remittance items. On
                                                        defrauded her employers of over $400,000
April 1, 1999, TIGTA special agents
                                                        through various means, including stolen and
confronted the employees immediately after
                                                        converted money orders and wire transfers.
they failed to properly process the tax
                                                        The United States Secret Service notified
payments during separate incidents. Both
                                                        TIGTA after receiving a report concerning the
employees confessed to the thefts and turned
                                                        wife's theft. An investigation of the wife by
over the stolen money. IRS immediately
                                                        the Secret Service and IRS’ Criminal
terminated the employees.
                                                        Investigation Division resulted in the wife
                                                        being charged with eight counts of stealing
Nine Individuals Indicted in Scheme                     money orders and filing false tax returns. A
That Included Thefts of Taxpayer                        subsequent investigation by TIGTA and IRS’
Remittances
                                                        Criminal Investigation Division of the IRS
On May 18, 1999, nine individuals were                  employee determined that he used the
indicted for conspiracy in a scheme that                embezzled money to fund numerous gambling
included the thefts of taxpayer remittances,            trips and pay gambling debts. The income


                     Treasury Inspector General for Tax Administration
                                   September 30, 1999
                                                   32
                              Semiannual Report to the Congress



derived from this scheme was not reported on           The former employee entered into a plea
the employee and his wife’s jointly filed              agreement that charged felony violations of
federal income tax returns for tax years               conspiracy by an employee of the United
1992-1996.                                             States Government.

IRS Employee Found Guilty of Theft of                  Lockbox Manager Arrested for
$31,150 in Tax Remittance Checks and                   Embezzlement of Tax Payments
Destruction of a Tax Return
                                                       As the result of a taxpayer complaint that a
On April 20, 1999, a federal grand jury                tax payment had not been credited to the
indicted an IRS employee on three counts of            taxpayer’s federal income tax liability, a
theft of public money and destruction of a tax         manager at a lockbox facility was arrested on
return. The investigation began when a                 embezzlement charges. When interviewed,
taxpayer reported that her $8,000 tax                  the lockbox manager admitted to the theft and
remittance check, made payable to the IRS,             negotiation of five tax payments. An
was altered to be payable to an individual.            inventory of the contents of the employee’s
Review of IRS records identified the                   desk revealed 426 personal checks and money
individual as an IRS employee. Bank records            orders from taxpayers, totaling in excess of
confirmed that the $8,000 check was                    $1.3 million. A federal magistrate ordered
deposited into the employee’s bank account.            that the employee be held without bond based
Bank employees later notified TIGTA agents             on the discovery that he was an illegal alien
that the employee had deposited a second               using a social security number not officially
check for $23,150 into her account. A review           assigned to him by the Social Security
of that check revealed that it was also altered        Administration. The INS subsequently placed
to the name of the employee. The employee              a detainer on the employee.
was arrested and admitted that she threw
away the tax return that was attached to the           Fugitive Sentenced in Multi-Defendant
$23,150 check. On July 28, 1999, the                   Telemarketing Scheme
employee was found guilty of all three counts.
The employee was terminated from IRS.                  On May 28, 1999, an individual, after
                                                       remaining a fugitive for approximately three
Former IRS Employee Charged in                         years, was sentenced to 30 months
Refund Scheme                                          imprisonment and three years supervised
                                                       probation, and ordered to pay $7,573 in
A former IRS employee, while employed by               restitution to victims for operating a
the IRS, agreed and colluded with an                   telemarketing scheme. On March 27, 1996,
individual to release or cause the release of a        the telemarketer had failed to appear for his
total of 219 Earned Income Tax Credit                  sentencing hearing after his conviction on
refunds without the proper justification. The          fraud charges, and a fugitive warrant was
former IRS employee accepted between $150              issued for the individual for violating the
and $200 from a co-conspirator in exchange             conditions of pretrial release. This individual
for releasing each refund. The refund would            and six conspirators defrauded taxpayers of
typically be claimed in the name of migrant            $141,556 by contacting victims and telling
farm workers who failed to present the                 them that they won an automobile, a $5,000
necessary documentation to claim the refund,           shopping spree or a $2,500 cashier’s check.
and in some cases, failed to file a tax return         The victims were told that the company was
altogether. The former employee accepted a             authorized to collect federal taxes on behalf of
total of $14,000 in payments for illegally             the IRS and that the taxes needed to be paid
releasing Earned Income Tax Credit refunds.            before their “prize” could be awarded.

                     Treasury Inspector General for Tax Administration
                                   September 30, 1999
                                                  33
                             Semiannual Report to the Congress



Individual Arrested for Impersonating                  compared to the millions of taxpayer contacts
an IRS Employee and Mail Fraud                         made yearly by IRS employees, sometimes
                                                       individuals do resort to violent acts. The
On June 21, 1999, an individual was arrested
                                                       Office of Investigations is committed to
for a scheme to defraud a taxpayer, his elderly
                                                       providing the highest priority in terms of
cousin. The individual arranged a telephone
                                                       responsiveness and investigative emphasis to
call to the taxpayer from a fictitious IRS
                                                       threats and assaults against IRS employees.
employee who claimed that the taxpayer owed
                                                       This Office also investigates incidents of
$11,000 to the IRS. The individual, who
                                                       harassment by individuals who attempt to
prepared the taxpayer’s returns, told the
                                                       undermine IRS employees as they carry out
taxpayer to withdraw $10,000 from the bank
                                                       their duties. During this six-month period, the
in cash and he would settle the tax deficiency.
                                                       Office of Investigations completed 271 threat
The elderly taxpayer provided the individual
                                                       and assault investigations.
with $10,000 for the IRS and $500 for his
handling of the matter. During conversations
                                                       Individual Threatens to Bomb World
recorded by TIGTA special agents, the
                                                       Trade Center Building and Other IRS
individual admitted to another relative of the
                                                       Offices
taxpayer that he extorted the funds. The
individual was charged with two counts of              On May 21, 1999, after receiving notice that
mail fraud and one count of impersonating a            his recent appeal in an United States Tax
federal officer.                                       Court had been rejected, a New York resident
                                                       made threatening telephone calls to IRS
Inmate Indicted for Submitting False                   District Counsel attorneys. In two separate
Request for Information                                phone calls, he threatened to bomb the World
                                                       Trade Center building and several other IRS
On April 13, 1999, a federal grand jury
                                                       locations in the New York area. He also
returned an indictment charging an inmate
                                                       threatened to kill several IRS employees and
with forgery and false statements. The
                                                       their families and claimed that he had taken a
investigation began after an inmate falsely
                                                       contract out on everyone in the World Trade
submitted a tax authorization form to the IRS
                                                       Center building. An Assistant United States
requesting employer information on a third
                                                       Attorney immediately authorized TIGTA
party. The investigation determined that the
                                                       special agents to arrest the individual.
inmate had forged the form in an attempt to
obtain an address on a taxpayer who the
                                                       Individual Charged With Threatening
inmate had a history of stalking and harassing.
                                                       to Blow Up IRS Building
The local IRS disclosure office suspected the
form to be forged and forwarded it to TIGTA            On May 26, 1999, an individual who had been
before any records were released to the                charged with attempting to interfere with the
inmate. The inmate was identified by his               administration of internal revenue laws using
return address that was a corrections facility.        corrupt or forcible interference pled guilty and
                                                       subsequently received a three-year suspended
                                                       sentence. The individual telephoned an IRS
  Threat, Assault, and Harassment
                                                       service center regarding a notice she received
           Investigations                              and stated she did not owe taxes to the IRS.
                                                       She then said she wanted to “bomb the IRS
While serving the taxpayers, IRS employees
                                                       building without anyone in the building.” The
face a difficult and challenging mission.
                                                       individual had been the subject of a 1991
While incidents and threats of violence and
                                                       investigation where she threatened to kill
harassment are extremely rare when
                                                       several IRS employees. That investigation

                    Treasury Inspector General for Tax Administration
                                  September 30, 1999
                                                  34
                             Semiannual Report to the Congress



led to her arrest and conviction on the same           threatened employees of the station and an
charge.                                                IRS employee who had recently appeared on
                                                       the station to provide taxpayer education. The
Individual Arrested After Making                       subject was arrested and confessed to placing
Telephonic Threat to IRS Employee                      the threatening calls because he was angry
                                                       with the IRS employee for being on the show
On May 7, 1999, an IRS employee reported
                                                       and was also angry with the radio station
that an individual made a telephonic threat
                                                       employees for putting the IRS employee on
during a call concerning his tax liability. The
                                                       the air.
individual stated he knew about ammonium
nitrate and that it was used in the bombing of
                                                       Individual Injures IRS Employee
the Oklahoma City building. Based on the
                                                       During an Assault in IRS Office
severity of his statements, an Assistant United
States Attorney agreed to the issuance of an           On June 30, 1999, an individual entered a
arrest warrant. TIGTA special agents affected          guilty plea and was sentenced to one year
the arrest after successfully negotiating with         probation, was fined $250, and ordered to pay
the individual who was armed with knives.              restitution of $2,058 for medical expenses for
After relinquishing his weapons, the                   assaulting and causing injury to an IRS
individual admitted to making the threatening          employee who was on official duty. TIGTA
call to the IRS.                                       special agents responded to a call for help
                                                       from an IRS employee who had been
Individual Arrested for Making                         assaulted by an unknown man upset over the
Threatening Statements                                 inconvenient hours for the IRS Customer
                                                       Service Lobby. The employee had to be
On July 12, 1999, an individual, in a
                                                       taken to the emergency room for treatment.
conversation with her accountant, made
                                                       The individual was identified and arrested by
threatening comments regarding IRS
                                                       TIGTA special agents.
employees. The woman stated to the
accountant that she was going down to the
                                                       Individual Pleads Guilty to Threatening
IRS office and blow it up. She further
                                                       to Blow Up a Federal Building
indicated she would shoot anybody she saw at
the IRS and that she did not care if she went          On May 28, 1999, an individual entered a
to jail. The accountant reported the comments          guilty plea on charges of attempting to
to TIGTA. When interviewed by TIGTA                    interfere with the administration of internal
special agents, she stated she could say               revenue laws by threats of force. A TIGTA
anything she wanted. Shortly after this                investigation was initiated after an IRS
interview, the woman called the accountant’s           employee reported that the individual called
office and stated she would blow up his office         the IRS and threatened to blow up a federal
first if he had reported her. The United States        building where IRS employees were located.
Attorney authorized the arrest of the woman.           Earlier that day, the individual had to be
                                                       removed from the federal building by security
Individual Pleads Guilty to Threatening                guards after causing a disturbance in the IRS
Communications                                         office. TIGTA’s investigation disclosed that
                                                       the individual made numerous telephone calls
On June 2, 1999, an individual pled guilty to
                                                       to various IRS call sites located throughout
making threatening communications and
                                                       the country, making additional threatening
received two years probation after making
                                                       remarks and referencing the Oklahoma City
hundreds of telephone calls to a local radio
                                                       bombing. On August 13, 1999, the individual
station. The individual harassed and


                    Treasury Inspector General for Tax Administration
                                  September 30, 1999
                                                  35
                             Semiannual Report to the Congress



was sentenced to 2 years probation and                illegally encumber the personal property of
50 hours of community service.                        two IRS employees. This action caused
                                                      difficulties for one of the employees who was
Individual Found Guilty of Interfering                attempting to re-finance his personal
with the Administration of Internal                   residence prior to his retirement. Also, in an
Revenue Laws                                          attempt to avoid payment of taxes, the subject
                                                      filed bankruptcy, appointed himself as trustee
On July 8, 1999, after a three-day trial, an
                                                      and transferred $40,000 to overseas accounts,
individual was found guilty of attempting to
                                                      beyond the reach of the government.
interfere with the administration of internal
revenue laws and bankruptcy fraud. This
individual filed fraudulent court documents to




                    Treasury Inspector General for Tax Administration
                                  September 30, 1999
                                                 36
                                     Semiannual Report to the Congress


                                                                                               Appendix I
                                                                Statistical Reports for the Office of Audit

                                    Audit Reports With Questioned Costs

Three audit reports with questioned costs were issued during this semiannual reporting period.

The term “questioned cost” means a cost that is questioned because of: (1) an alleged violation of
a provision of a law, regulation, contract, or other requirement governing the expenditure of
funds; (2) a finding that, at the time of the audit, such cost is not supported by adequate
documentation (“unsupported cost”); or (3) a finding that expenditure of funds for the intended
purpose is unnecessary or unreasonable. The term “disallowed cost” means a questioned cost that
management, in a management decision, has sustained or agreed should not be charged to the
government.


Audit Reports With Questioned Costs                   Number
          (4/1/99 – 9/30/99)                            of           Questioned Costs2     Unsupported Costs
Report Category:                                      Reports1
                                                                      (In Thousands)        (In Thousands)
1.     For which no management decision had
       been made by the beginning of the                  0                            0                       0
       reporting period.

2.     Which were issued during the reporting
       period.                                            3                       $325                         0
3.     Subtotals (Item 1 plus Item 2)                     3                       $325                         0
4.     For which a management decision was
       made during the reporting period.                  0                            0                       0
       -    Dollar value of disallowed costs              0                            0                       0
       -    Dollar value of costs not disallowed          0                            0                       0


5.     For which no management decision had
       been made by the end of the reporting              3                       $325                         0
       period. (Item 3 minus Item 4)


6.     For which no management decision was
       made within six months of report                   0                            0                       0
       issuance.

1
     See Appendix IV for identification of audit reports involved.
2
     “Questioned Costs” include “Unsupported Costs.”




                          Treasury Inspector General for Tax Administration
                                        September 30, 1999
                                                              37
                                     Semiannual Report to the Congress


                                                                                                Appendix I
                                                                 Statistical Reports for the Office of Audit

           Audit Reports With Recommendations That Funds Be Put To Better Use

Three reports with recommendations that funds be put to better use were issued during this
semiannual reporting period.
The term “recommendation that funds be put to better use” means a recommendation that funds
could be used more efficiently if management took actions to implement and complete the
recommendation, including: (1) reductions in outlays; (2) deobligations of funds from programs
or operations; (3) costs not incurred by implementing recommended improvements related to
operations; (4) avoidance of unnecessary expenditures noted in pre-award reviews of contract
agreements; or (5) any other savings which are specifically identified. The term “management
decision” means the evaluation by management of the findings and recommendations included in
an audit report and the issuance of a final decision concerning its response to such findings and
recommendations, including actions concluded to be necessary.

      Reports With Recommendations That Funds Be Put to Better Use
                          (4/1/99 – 9/30/99)                                        Number of              Amount
                                                                                     Reports1          (In Thousands)
     Report Category
     1.   For which no management decision had been made by the beginning                0                              0
          of the reporting period.
     2.   Which were issued during the reporting period.                                 3                    $169,175 2

     3.   Subtotals (Item 1 plus Item 2)                                                 3                      $169,175
     4.   For which a management decision was made during the reporting
          period.                                                                        3                      $169,175
          Dollar value of recommendations that were agreed to by
          management
          -    Based on proposed management action                                       3                      $169,175
          -    Based on proposed legislative action                                      0                              0
          Dollar value of recommendations that were not agreed to by
          management                                                                     0                              0

     5.   For which no management decision had been made by the end of the
          reporting period. (Item 3 minus Item 4)                                        0                              0
     6.   For which no management decision was made within six months of
          issuance.                                                                      0                              0

1
     See Appendix IV for identification of audit reports involved.
2
    $150 million of the total represents the annual reduction of interest costs, as estimated by the IRS in their response to
    the report, that would result from the accelerated processing of individual and business paper check refunds (see
    Report No. 093309).




                          Treasury Inspector General for Tax Administration
                                        September 30, 1999
                                                              38
                            Semiannual Report to the Congress


                                                                                  Appendix I
                                                   Statistical Reports for the Office of Audit

     Audit Reports With Additional Quantifiable Impact on Tax Administration

In addition to questioned costs and funds put to better use, the Office of Audit has identified
additional measures that demonstrate the value of audit recommendations on tax administration
and business operations. These issues are of interest to the IRS and Treasury executives, the
Congress, and the taxpaying public, and should be expressed when possible in quantifiable terms
to provide further insights to the value and potential impact of the Office of Audit’s products and
services. Including this information also advances adherence to the intent and spirit of GPRA.
Definitions of these additional measures are:
1. Taxpayer Rights and Entitlements at Risk: The protection of due process
   (rights) that is granted to taxpayers by law, regulation, or IRS policies and
   procedures. These rights most commonly arise in the performance of filing tax
   returns, paying delinquent taxes, and examining the accuracy of tax liabilities.
   The acceptance of claims for and issuance of refunds (entitlements) are also
   included in this category, relating to instances when taxpayers have a legitimate
   assertion to overpayments of tax.
2. Reduction of Burden on Taxpayers: Decreases by individuals or businesses
   in the need for, frequency of, or time spent on contacts, record keeping,
   preparation, or costs to comply with tax laws, regulations, and IRS policies and
   procedures.
3. Increased Revenue or Revenue Protected: Assessment or collection of
   additional taxes (increased revenue), or proper denial of claims for refund,
   including recommendations that prevent erroneous refunds or efforts to defraud
   the tax system (revenue protection).
4. Taxpayer Privacy and Security: Protection of taxpayer financial and account
   information (privacy). Processes and programs that provide protection of tax
   administration, account information and organizational assets (security).
5. Protection of Resources: Safeguarding human and capital assets, used by or in
   the custody of the organization, from inadvertent or malicious injury, theft,
   destruction, loss, misuse, overpayment, or degradation. This measure will often
   be expressed as a value of the entity or program affected by the issue(s)
   described in the audit report.
6. Reliability of Management Information: Ensuring the accuracy, validity,
   relevance, and integrity of data, including the sources of data and the
   applications and processing thereof, used by the organization to plan, monitor,
   and report on its financial and operational activities. This measure will often be
   expressed as an absolute value (i.e., without regard to whether a number is
   positive or negative) of overstatements or understatements of amounts recorded
   on the organization’s documents or systems.




                   Treasury Inspector General for Tax Administration
                                 September 30, 1999
                                                39
                                   Semiannual Report to the Congress


                                                                                             Appendix I
                                                              Statistical Reports for the Office of Audit

        Audit Reports With Additional Quantifiable Impact on Tax Administration

The number of taxpayer accounts, hours, and dollar values shown in this chart were derived from
analyses of historical data, and are thus considered potential barometers of the impact of audit
recommendations. Actual results will vary depending on the timing and extent of management’s
implementation of the corresponding corrective actions, and the number of accounts or
subsequent business activities applicable from the dates of implementation. Also, a report may
have issues that impact more than one outcome measure category.


 Reports With Additional Quantifiable          Number
    Impact on Tax Administration                 of
          (4/1/99 – 9/30/99)                   Reports          Number of      Number
                                                 in             Taxpayer         of          Dollar Value
Outcome Measure Category                      Category1         Accounts        Hours      (In Thousands)        Other
1.     Taxpayer Rights and Entitlements at        8              1,758,385 2                          $16
       Risk
2.     Reduction of Burden on Taxpayers            2                  3,500                                     130,000 5

3.     Increased Revenue or Revenue                2                                                  $430
       Protected
4.     Taxpayer Privacy and Security               3        122,703,600 2,3


5.     Protection of Resources                     4                                               $39,040

6.     Reliability of Management                   5                                            $101,384 4     See Note 6
       Information


1
    See Appendix IV for identification of audit reports involved.
2
    Controls in the Examination Returns Control System are not adequate to protect both taxpayer rights and privacy for
    the 1.7 million examinations conducted annually.
3
    Taxpayer accounts on the Electronic Fraud Detection System are at risk of unauthorized access unless security
    controls that protect taxpayer data are strengthened. In FY 1998, the Electronic Fraud Detection System contained
    121 million accounts.
4
    Dollar value represents incorrect information contained in reports and information systems designed to assist
    management in making business decisions concerning reimbursable agreements with other agencies ($77.5 million);
    cost of an information system project ($22.3 million); and, labor costs applied to a customer service program
    ($514,000) and development of a tax processing system ($1.07 million).
5
    Consists of 130,000 electronic mail inquiries from taxpayers seeking assistance who may receive answers that are
    not always complete, concise or clear.
6
    Consists of the following measure: 22% of the 125 files exchanged with external trading partners that were not
    correctly displayed on the Integrated Network and Operations Management System (INOMS).




                         Treasury Inspector General for Tax Administration
                                       September 30, 1999
                                                           40
                                    Semiannual Report to the Congress


                                                                                      Appendix II
                                              Statistical Reports for the Office of Investigations


                                         Investigative Results
                                    April 1, 1999 – September 30, 1999


                                     Investigations Opened and Closed

Total Investigations Opened                                                                  2,071


Total Investigations Closed                                                                  1,642




                                        Financial Accomplishments

Bribe Payments (Seized/Recovered)                                                          $3,000


Embezzlement/Theft Funds (Recovered)                                                      $48,030



Fines Ordered by the Courts                                                              $129,629



Restitution Ordered by the Courts                                                      $12,822,199




                      Treasury Inspector General for Tax Administration
                                    September 30, 1999
                                                    41
                                    Semiannual Report to the Congress


                                                                                           Appendix II
                                                   Statistical Reports for the Office of Investigations



                                 Status of Closed Criminal Investigations


                                                         Employee             Non-Employee               TOTAL 1
                                                          Subject                Subject
Referred – Accepted for Prosecution                                    43                   104                      147

Referred – Declined for Prosecution                                  214                    323                      537

No Referral 2                                                        491                    437                      928

Referred - Pending Prosecution Decision                                13                    90                      103




                                              Criminal Dispositions3


                                                         Employee            Non-Employee               TOTAL 1
                                                          Subject               Subject
Guilty                                                               24                     89                       113

Nolo-Contendere                                                        1                     1                            2

Pretrial Diversion                                                     5                     6                        11

Not Guilty                                                             0                     1                            1

Dismissed                                                              1                     1                            2


1
    The above statistics include both federal and state dispositions.
2
    Includes investigations in which the allegation was disproved and/or insufficient evidence was obtained.
3
    Due to the time involved in criminal adjudication, there is most often no correlation between the data reflected as
    “Referred-Accepted for Prosecution” in the Status of Closed Criminal Investigations chart and the data in the
    Criminal Dispositions chart.




                         Treasury Inspector General for Tax Administration
                                       September 30, 1999
                                                            42
                                   Semiannual Report to the Congress


                                                                                            Appendix II
                                                    Statistical Reports for the Office of Investigations

    The following tables summarize the number of complaints received by TIGTA and various
    components within the IRS and the status and dispositions of serious allegations against IRS
    employees. [I.R.C. 7803(d)(2)(A)(i – iv)]

                              Complaints/Allegations Received by TIGTA

                                                          TIGTA                 TIGTA                   TOTAL
                                                           Cases              Information
                                                                                 Items
Number of Complaints Received by TIGTA                             2,071               3,021                      5,092

            Complaints Against IRS Employees                        833                  2,227                    3,060

            TIGTA Proactive Cases on IRS                            210                                             210
            Employees
            Complaints Against Non-Employees                        959                    794                    1,753
            Other Proactive TIGTA Initiatives                         69                                             69




                                 Complaints/Allegations Received by IRS

                                                                                                        TOTAL
                                            1
Number of Complaints Received by IRS

            Customer Feedback System (CFS)2                                                                       2,110
                                                3
            Problem Resolution Program (PRP)                                                                   152,073

            EEO Informal Complaints4                                                                              1,158
            EEO Formal Complaints4                                                                                  437
                                        5
            Other Employee Misconduct                                                                               235


1
    Number of complaints are not totaled because of significant differences in the nature of issues raised in each
    complaint system and the potential for duplication.
2
    CFS data reflects complaints made by taxpayers regarding IRS employee conduct, as required by the Taxpayer Bill
    of Rights 2.
3
    PRP data reflects efforts to solve individual taxpayer problems, using criteria established by the National Taxpayer
    Advocate. Since the management information system does not specifically identify complaints, it is not possible to
    separate complaints from other taxpayer communications involving inquiries and problems.
4
    EEO data on formal and informal complaints includes duplication. The EEO process includes attempts at informal
    resolution before the case goes into the formal complaint process. Cases in which the informal complaint process
    was initiated and completed during the reporting period could be counted as received in both categories during the
    reporting period.
5
    Other employee misconduct includes misconduct allegations addressed through management inquiries, as reflected
    in two information systems, the Executive Control Management System and the Automated Labor and Employee
    Relations Tracking System. The IRS believes that an unknown but possibly significant percentage of the allegations
    are reported in both systems.


                         Treasury Inspector General for Tax Administration
                                       September 30, 1999
                                                            43
                                  Semiannual Report to the Congress


                                                                                         Appendix II
                                                 Statistical Reports for the Office of Investigations



         Administrative Status and Dispositions on Closed TIGTA Investigations1

Removed, Terminated, or Other                                                                                   108
Suspended/Reduction in Grade                                                                                     67
Oral or Written Reprimand/Admonishment                                                                           84
Closed – No Action Taken                                                                                        196
Clearance Letter Issued                                                                                          45

TOTAL DISPOSITIONS                                                                                              500


Employee Resigned Prior to Adjudication                                                                          85


1
    Cases which were referred and/or cases on which action was taken by the IRS during this reporting period.
    Additionally, TIGTA referred 451 cases during this 6-month period that remain pending administrative adjudication
    by the IRS.




                        Treasury Inspector General for Tax Administration
                                      September 30, 1999
                                                          44
                               Semiannual Report to the Congress


                                                                                          Appendix III
                                                                            Statistical Reports—Other

                Audit Reports With Unimplemented Corrective Actions

The Inspector General Act of 1978 requires identification of significant recommendations
described in previous semiannual reports on which corrective actions have not been completed.
The following list is based on information from the Office of Management Control’s automated
tracking system maintained by Treasury management officials.

 (F = Finding Number, R = Recommendation Number, P = Plan Number)

   Report
   Number          Issued        Report Title and Recommendation Summary

   041403       January 1994     Review of the Nonresident Alien Information Documents
                                 F-1, R-2, P-1. Management should ensure that obvious noncompliance with
                                 applicable tax laws and regulations be identified during processing.

   061610       January 1996     IRS' Efforts in Monitoring Trust Fund Recovery Penalty Assessments Need
                                 Improvement
                                 F-2, R-3, P-1. IRS should automate the processing of adjustments resulting
                                 from payments or credits on related Trust Fund Recovery accounts, as part of
                                 the Service’s modernization efforts.
                                 F-4, R-1, P-1. The Chief Financial Officer and Assistant Commissioner
                                 (Collection) need to define accounts receivable as it relates to Trust Fund
                                 Recovery (TFR) assessments. Management should re-evaluate the definition
                                 of accounts receivable related to TFR assessments and make the necessary
                                 changes to ensure TFR assessments are accurately represented.

   060402       January 1996     Review of the Early Intervention Contact Processing
                                 F-2, R-1, P-2. Early Intervention should consider alternate methods to obtain
                                 the most current taxpayer locator information.

   064102        May 1996        Review of the Preparer Program
                                 F-1, R-1, P-1. Associate the preparer Taxpayer Identification Number with
                                 each individual return in the audit stream.

   064008        June 1996       The Financial Accounting and Reporting of Collection's Seized Assets Could
                                 Be Improved
                                 F-2, R-1, P-4. Management should incorporate a systemic interface between
                                 the Automated Work Control System seizure module and the general ledger as
                                 part of Revenue Accounting Control System replacement.

   065002        July 1996       Review of the Validity of Assessments
                                 F-1, R-1, P-1. The Service should review a sample of “No Change” and abated
                                 Combined Annual Wage Reporting and Social Security Administration penalty
                                 cases after the processing season to evaluate causes of unproductive cases and
                                 identify where additional program improvements can be made.
                                 F-1, R-3, P-1. The Service should continue pursuing the capability to access
                                 Social Security Administration (SSA) data via computer to enable quick,
                                 economical processing of Combined Annual Wage Reporting and SSA penalty
                                 cases.




                   Treasury Inspector General for Tax Administration
                                 September 30, 1999
                                                     45
                         Semiannual Report to the Congress


                                                                                    Appendix III
                                                                      Statistical Reports—Other

          Audit Reports With Unimplemented Corrective Actions

Report
Number       Issued        Report Title and Recommendation Summary

065503    August 1996      Review of The Employment Tax Nonfiler Program
                           F-2, R-1, P-1. When Form W-3 information is received from the Social
                           Security Administration match the employer identification number and name
                           control to those on the Business Masterfile.
                           F-2, R-2, P-1. When the Service Center Unpostable function cannot perfect an
                           Employer Identification Number (EIN)/name from the Form W-3, initiate
                           Collection contact with the employer to secure any delinquent returns rather
                           than terminating processing of those Form W-3 with unperfected EINs.
                           F-2, R-3, P-1. Establish a Form W-2/Business Masterfile (BMF) check of
                           Employer Identification Numbers (EINs) that appear on Forms W-2 attached to
                           electronically filed Forms 1040. Establish employment tax filing requirements
                           for those EINs that match an existing BMF account if the account does not
                           have a filing requirement and does not contain a subsidiary indicator.

066401   September 1996    Follow-up Review of Information Security Over Small Scale Computer Systems
                           F-1, R-1, P-24. Require Regional Commissioners to conduct another self-
                           assessment and certification of systems, to be followed by a validation.

071404   February 1997     Productivity of the Underreporter Program
                           F-1, R-1, P-1. A Gross Assessment Method should be used to calculate the
                           Underreporter Program productivity.
                           F-2, R-1, P-1. A Gross Assessment Method should be used to calculate yield
                           to cost ratios, determine productivity rankings, and select inventory for the
                           Underreporter Program.
                           F-3, R-1, P-1. Actual site costs should be used when calculating productivity
                           to increase the accuracy of productivity rankings and obtain a more precise
                           measurement of efficiency.

071304    March 1997       Quality of Information Document Processing
                           F-1, R-1, P-3, P-4. Review IRS reports (Martinsburg Computing Center
                           Report 405-02-12) to determine whether large variances exist between
                           processing years in the volume and dollars of information documents.




             Treasury Inspector General for Tax Administration
                           September 30, 1999
                                               46
                        Semiannual Report to the Congress


                                                                                    Appendix III
                                                                      Statistical Reports—Other

          Audit Reports With Unimplemented Corrective Actions

Report
Number       Issued       Report Title and Recommendation Summary

072208     April 1997     Review of Service Efforts to Ensure Compliance of Taxpayers Receiving
                          Foreign Sourced Income
                          F-1, R-1, P-1, P-2. The Assistant Commissioner (International) should work in
                          coordination with the Executive Officer for Customer Service to measure the
                          overall impact of Foreign Information Returns Program (FIRP) documents and
                          the role FIRP should play in relation to overall compliance efforts.
                          F-2, R-1, P-1. The Service should commit to the development of a system to
                          process foreign information records received magnetically in the standard
                          Organization for Economic Cooperation and Development format.
                          F-2, R-4, P-1, P-2, P-3. The Assistant Commissioner (International) should
                          coordinate efforts with the Executive Officer for Customer Service and the
                          National Director, Submission Processing, to ensure that late filed and prior
                          year Foreign Information Returns Program documents are processed and
                          available for inclusion in the Information Returns Program initiative, when it
                          becomes operational.

072303     April 1997     A Review of Cyberfile
                          F-1, R-2, P-1. To reduce the chance of a recurrence of the types of problems
                          that impacted Cyberfile’s development, management should ensure that IRS
                          guidelines are strengthened to specify project management procedures
                          regarding tracking funds paid to vendors for services and vendor
                          purchases/leases of IRS-funded equipment.

073804     July 1997      Review of the Inventory Delivery System Development
                          F-2, R-4, P-1. The Service should review and update the sampling plan to
                          ensure it includes criteria for the evaluation of each sampled account within a
                          sub-group to ensure consistency.
                          F-2, R-6, P-1. The results of the Self-Monitoring Program should be included
                          as one of the factors for determining whether and when Inventory Delivery
                          System features should be scheduled for national implementation.

075404   September 1997   Review of the Office of Disclosure
                          F-3, R-2, P-2. The Office of Disclosure should ensure that all requests for tax
                          checks, both internally and externally, are properly tracked and controlled.
                          F-3, R-3, P-2. The Office of Disclosure should take appropriate measures to
                          ensure sensitive data maintained on the inventory control system is properly
                          protected. The system should meet C-2 requirements and provide an adequate
                          audit trail to monitor users’ activity on the database.

080303   November 1997    Implementation of the Taxpayer Bill of Rights 2
                          F-1, R-1, P-1. Alternative methods of obtaining feedback from taxpayers about
                          how they were treated should be considered, rather than relying solely on
                          employees and managers for input.
                          F-1, R-2, P-1, P-2. Form 1040 should be redesigned to capture more specific
                          information that can be used for analysis to identify trends for corrective
                          action.




             Treasury Inspector General for Tax Administration
                           September 30, 1999
                                              47
                         Semiannual Report to the Congress


                                                                                      Appendix III
                                                                        Statistical Reports—Other

          Audit Reports With Unimplemented Corrective Actions

Report
Number      Issued         Report Title and Recommendation Summary

081004   December 1997     Taxpayer Walk-in Program for the 1997 Filing Season
                           F-2, R-1, P-2. Develop a customer-based strategy and a related program with
                           applicable goals and measures to evaluate performance of the Walk-In
                           Program.

082204    January 1998     Review of the Initial System Development Activities on the Integrated
                           Submission and Remittance Processing System
                           F-3, R-1, P-1. Ensure that the pilot’s evaluation plan contains sufficient
                           measures and data capture to develop quantitative support for projected
                           productivity increases if labor savings are claimed as a cost benefit.
                           F-3, R-5, P-1. Assess the risks associated with not having the systems
                           developer under contract during the Year 2000.

083008     April 1998      Review of the Service’s Electronic Federal Tax Payment System
                           Implementation and Enhancements
                           F-4, R-2, P-1. IRS management should provide a process for electronic
                           submission of authorization data to eliminate manual transcription.
                           F-4, R-5, P-1. For the long-term, management should use the authority given
                           by the Taxpayer Bill of Rights 2 for alternative forms of authorizations to
                           re-engineer the enrollment and authorization processes in the Electronic
                           Federal Tax Payment System and substantially reduce, and perhaps eliminate,
                           paper enrollments and authorizations.




             Treasury Inspector General for Tax Administration
                           September 30, 1999
                                                48
                      Semiannual Report to the Congress


                                                                                 Appendix III
                                                                   Statistical Reports—Other

         Audit Reports With Unimplemented Corrective Actions

Report
Number     Issued       Report Title and Recommendation Summary

083322   May 1998       Math Error Processing for Revenue Protection Issues
                        F-1, R-1, P-2. Implement the remaining provisions of new laws designed to
                        combat filing fraud by budgeting the resources needed to work invalid primary
                        and secondary Taxpayer Identification Number cases.
                        F-2, R-2, P-1. Change math error notices and Integrated Data Retrieval System
                        correspondence dealing with invalid Taxpayer Identification Numbers for
                        dependent and Earned Income Tax Credit qualifying children to alert taxpayers
                        that the problems may be the result of incomplete or inaccurate name
                        information.
                        F-3, R-1, P-2. Send notices to taxpayers who used invalid Taxpayer
                        Identification Numbers on their previous returns for themselves and their
                        spouses.
                        F-5, R-1, P-1. Develop programming to automate the research of prior year
                        return data by Error Correction when dependent and Earned Income Credit
                        Taxpayer Identification Numbers are invalid or missing.
                        F-6, R-1, P-3. Develop a job aid or guide for Code & Edit function.
                        F-6, R-2, P-1. Develop an error code for returns without dependents but
                        claiming Child and Dependent Care Credit.
                        F-6, R-3, P-1. Develop an error code for missing provider Taxpayer
                        Identification Numbers.
                        F-9, R-1, P-2. Provide more training for Error Correction function.
                        F-9, R-2, P-1. Develop an error code to identify returns claiming
                        Head-of-Household filing status when no valid dependent Taxpayer
                        Identification Number is present.
                        F-10, R-1, P-1. Include an informal checklist in Revenue Protection Strategy
                        math error notices listing the information taxpayers should provide when
                        writing or calling the IRS.

083605   June 1998      Review of the Service’s Year 2000 Conversion and Testing for Phase III
                        F-4, R-1, P-3. Information Systems management needs to develop a process
                        to trace components from the Application Program Registry to executable
                        elements on production libraries.

084407    July 1998     Use of Seizure Authority in the Collection Field Function
                        F-1, R-2, P-3, P-6. Communicate new and enhanced procedures during
                        upcoming Continuing Professional Education sessions and in appropriate
                        training class modules for revenue officers, group managers, and the Special
                        Procedures Function.
                        F-7, R-1, P-2. Develop a comprehensive certification/review checksheet that
                        can be used by appropriate levels of management to attest that all legal and
                        procedural requirements have been met.




           Treasury Inspector General for Tax Administration
                         September 30, 1999
                                            49
                         Semiannual Report to the Congress


                                                                                      Appendix III
                                                                        Statistical Reports—Other

          Audit Reports With Unimplemented Corrective Actions

Report
Number       Issued        Report Title and Recommendation Summary

084803     July 1998       Review of the Integration Support Contract
                           F-1, R-1, P-2. Procurement and Information Systems should ensure that
                           in-depth analysis of contractor labor hours and costs is performed prior to
                           payment of the invoices.
                           F-3, R-1, P-1. Information Systems should monitor the Government Furnished
                           Equipment/Government Furnished Information by establishing a database to
                           capture all the equipment and information provided to the vendor under the life
                           of the contract.

085812   September 1998    Readiness for Service Center Mainframe Consolidation
                           F-2, R-1, P-1. Unless assurances can be made that experienced Service
                           personnel can be relocated when and where needed, Service management
                           should develop a contingency plan to provide the needed staffing for critical
                           positions at all affected sites.
                           F-5, R-1, P-1. Management should ensure security and disaster recovery risks
                           are mitigated through a proactive approach of determining the final disaster
                           recovery strategy and funding security certification and accreditation activities.
                           F-10, R-1, P-1. The Project Management Office should ensure vendor site
                           surveys are completed and issued within the 15-day requirement per the
                           Service Center Support System contract, and reviewed by Information Systems
                           personnel for accuracy and completeness.
                           F-11, R-1, P-4, P-5. The Project Management Office should provide additional
                           resources to adequately define and validate the delivery order requirements and
                           to coordinate with Procurement until all requirements are definitized for price
                           negotiations.

090403    October 1998     Review of Phase IV Year 2000 Conversion and Testing
                           F-1, R-1, P-1. The Century Date Change Project Office should ensure that the
                           Assistant Commissioner (Product Assurance) monitors organizational efforts to
                           re-certify the data on the Application Program Registry (APR), ensuring also
                           that components tracked and reported on the APR are linked with the correct
                           phase and status.

091502   November 1998     Evaluation of the Service’s Efforts to Acquire a New Federally Funded
                           Research and Development Center Contractor
                           F-1, R-2, P-1. Information Systems personnel should ensure tasks issued to
                           each contractor are sufficiently defined to assure the work of the various
                           contractors will not overlap.

091903   December 1998     Executive Compilation and Interpretation of the 1998 Filing Season
                           F-1, R-2, P-1. Establishing a taxpayer profile database to allow for quicker
                           verification of taxpayer account information.
                           F-1, R-4, P-3. Eliminating the extra burden placed on taxpayers with balance
                           due returns who file electronically.
                           F-2, R-1, P-1. To simplify return filing, the Service should improve the
                           process used to evaluate the burden placed upon taxpayers by the various tax
                           laws and publications.



             Treasury Inspector General for Tax Administration
                           September 30, 1999
                                                50
                         Semiannual Report to the Congress


                                                                                     Appendix III
                                                                       Statistical Reports—Other

         Audit Reports With Unimplemented Corrective Actions

Report
Number      Issued         Report Title and Recommendation Summary

091804   January 1999      IRS Employee Outside Employment Requests
                           F-1, R-1, P-2. Update and clarify national guidelines on the processing,
                           approval, and annual review of applications for outside employment. Clearly
                           define the role and authority of both management and Labor Relations.
                           F-3, R-1, P-1. Require a one-time re-submission of all outside employment
                           requests (using Form 7995 revised 1993 or after, which provide for the Social
                           Security Numbers), to enable a national cleanup of Labor Relations’ and
                           managers’ records.

092402   February 1999     Review of the Internal Revenue Service’s Year 2000 Efforts to Inventory
                           Telecommunications and Commercial Off-the-Shelf Products
                           F-2, R-3, P-1. The Century Date Change Project Office should independently
                           verify that the Integrated Network and Operations Management System
                           (INOMS) inventory of Commercial Off-the Shelf (COTS) products is complete
                           for all Tier I systems. This verification could be accomplished by sampling
                           COTS products present on several machines and comparing them to the
                           INOMS inventory.

092705    March 1999       Review of the Internal Revenue Service’s Year 2000 Contingency Planning
                           Efforts
                           F-1, R-1, P-1. Review and correct Year 2000 inventory files on a recurring
                           basis to ensure information used to identify the need for contingency plans is
                           accurate and complete.
                           F-1, R-2, P-1. Establish validity checks for the Year 2000 inventory files.
                           F-5, R-1, P-2. Assign responsibility for the IRS’ overall contingency
                           management strategy, including Year 2000, and the coordination of resources
                           to one area.




            Treasury Inspector General for Tax Administration
                          September 30, 1999
                                               51
                           Semiannual Report to the Congress


                                                                               Appendix III
                                                                 Statistical Reports—Other



Access to Information
The Inspector General Act of 1978 requires Inspectors General to report on unreasonable refusals
of information available to the agency which relate to programs and operations for which the
Inspector General has responsibilities. There were no instances where information or assistance
requested by TIGTA was refused.


Audit Reports Issued in Prior Reporting Period With No Management
Response
The Inspector General Act of 1978 requires a summary of each audit report issued before the
beginning of the current reporting period for which no management response has been received
by the end of the current reporting period. There are no prior reports where management’s
response was not received.


Revised Management Decisions
The Inspector General Act of 1978 requires Inspectors General to provide a description and
explanation of the reasons for any significant revised management decisions made during the
reporting period. There were no such decisions during this six-month reporting period.


Disputed Audit Recommendations
The Inspector General Act of 1978 requires Inspectors General to provide information on
significant management decisions in response to audit recommendations, with which the
Inspectors General disagree. As of September 30, 1999, there were no significant
recommendations that were disputed.


Review of Legislation and Regulations
The Inspector General Act of 1978 requires Inspectors General to review existing and proposed
legislation and regulations and to make recommendations concerning the impact of such
legislation or regulations. TIGTA’s Office of Chief Counsel reviewed 158 proposed legislation
and regulations during the six-month reporting period.




                  Treasury Inspector General for Tax Administration
                                September 30, 1999
                                               52
                                 Semiannual Report to the Congress


                                                                                               Appendix IV

                                      TIGTA Audit Report Listing

                                  April 1, 1999 - September 30, 1999

    Report
                    Issued      Report Title
    Number
     093207       April 1999    The Internal Revenue Service Can Improve Its Reimbursable Program
                                Funds Put to Better Use:                 $    175,0001
                                Protection of Resources:                 $ 3,840,000 at risk
                                Reliability of Management Information: $ 77,500,000
     093602       April 1999    The Internal Revenue Service Needs to Improve Treatment of Taxpayers
                                During Office Audits
                                Taxpayer Burden:                         3,500 taxpayer accounts at risk
                                Taxpayer Privacy and Security:           3,600 taxpayer accounts at risk
                                Taxpayer Rights and Entitlements:        1,328 taxpayer accounts at risk
     093802       April 1999    Internal Revenue Service’s Invoice Processing for AT&T Toll-Free Telephone
                                Service
     094002       April 1999    Review of the Internal Revenue Service’s Year 2000 End-to-End System
                                Integration Test Efforts – Overall Planning and Execution of Test 1
     094106        May 1999     Improving Internal Revenue Service Processes for Evaluating and Publicizing
                                Walk-In Services
     094206        May 1999     The Examination Returns Control and Integrated Data Retrieval Systems Can
                                Be Improved to Protect Taxpayer Rights During the Audit Process
                                Taxpayer Privacy and Security and
                                Taxpayer Rights and Entitlements:     1,700,000 taxpayer accounts at risk
     C94800        May 1999     Cost Verification on Contract TIRNO-94-0028, Modifications 164 and 184
     092903        June 1999    The Cost Effectiveness and Security of Taxpayer Data in the Electronic
                                Transcript Delivery System
     093009        June 1999    Review of the Electronic Fraud Detection System
                                Taxpayer Privacy and Security:          121,000,000 taxpayer accounts at risk
                                Reliability of Management Information: $ 22,300,000 understated costs
     095001        June 1999    The Internal Revenue Service Has Improved Controls Over the Use of
                                Interagency Agreements
     190103        June 1999    Weak Internal Controls Exposed Taxpayer Payments to Embezzlement in the
                                Delaware-Maryland District
                                Revenue Protected:                       $     77,000
                                Protection of Resources:                $ 10,700,000 at risk
     C95100        June 1999    Contract Audit Closing Statement TIRNO-94-C-00084
                                Questioned Costs:                       $       98,158
     091104        July 1999    The Internal Revenue Service Should Improve Procedures to Identify and
                                Resolve Incorrect and Missing Taxpayer Identification Numbers
                                Revenue Protected:                      $     352,622
                                Taxpayer Rights and Entitlements:       $      15,617




1
    This figure represents a five-year projection.

                        Treasury Inspector General for Tax Administration
                                      September 30, 1999
                                                       53
                             Semiannual Report to the Congress


                                                                                          Appendix IV

                                 TIGTA Audit Report Listing


 Report
                Issued      Report Title
 Number
  190303       July 1999    Internal Revenue Service Procedures Were Not Consistently Followed When
                            North Florida District Revenue Officers Attempted to Improve Tax
                            Compliance in the Construction Trades Industry
                            Taxpayer Rights and Entitlements:       664 taxpayer accounts at risk
1999-1C-055    July 1999    Report on Audit of Public Vouchers Numbered 1 through 18
                            TIRNO-98-C-00041
                            Questioned Costs:                       $      119,517
  095202      August 1999   Opportunities Remain for the Internal Revenue Service to Further Minimize
                            the Risks Associated With Implementing Year 2000 Compliance for External
                            Trading Partners
                            Reliability of Management Information: 22% files with incorrect dates
  093402      August 1999   The Internal Revenue Service Could Reduce the Burden Placed on Business
                            Taxpayers When Resolving Account Overpayments
  093903      August 1999   The Internal Revenue Service Can Improve Customer Service by Accelerating
                            Refund Payments
                            Funds Put to Better Use:                $ 150,000,000
1999-1C-056   August 1999   Audit of Firm Fixed Price Proposal for Contract Modification Number 240
                            TIRNO-94-D-00028
                            Questioned Costs:                       $    107,400
  092303      August 1999   The Internal Revenue Service Needs to Increase the Capacity, Follow Up on
                            Reported Problems, and Encourage Voluntary Use of the Electronic Federal Tax
                            Payment System
1999-1C-059   August 1999   Audit of Fiscal Year 1996 Incurred Costs For TIR-95-0062

199920054     August 1999   Increased Validation and Oversight of Year 2000 Minicomputer Conversion
                            Efforts Are Needed To Strengthen Testing and To Avoid Further Delays
  093708      August 1999   The Internal Revenue Service’s Efforts to Increase the Telephone Level of
                            Access Can Be Improved
199920063     August 1999   The General Controls Environment Over the Internal Revenue Service’s
                            Unisys 2200 Systems Can Be Improved
199910064     August 1999   The Internal Revenue Service Can Improve Its Process for Accurately and
                            Timely Reporting Revenue Accounting Activities
  093103      September     Limitations of the Automated Non-Masterfile and the Impact on the Internal
                1999        Revenue Service
  094602      September     Effectiveness of the Internal Revenue Service’s Management of the Customer
                1999        Service Call Router Pilot
199940060     September     The Problem Solving Day Program in the Ohio District Has Been Generally
                1999        Successful
                            Reliability of Management Information: $  514,000 incorrectly classified
199940062     September     The Internal Revenue Service Can Improve Its Electronic Return Preparer
                1999        Fraud Activities
  093506      September     The Internal Revenue Service Needs Additional Emphasis On Computer
                1999        Component Retirement Decisions to Be Ready for the Year 2000




                   Treasury Inspector General for Tax Administration
                                 September 30, 1999
                                                   54
                         Semiannual Report to the Congress


                                                                                        Appendix IV

                              TIGTA Audit Report Listing


Report
             Issued     Report Title
Number
 094900     September   An Evaluation of the Impact of Raising the Threshold Requirements for
              1999      Making Estimated Tax Payments
199940065   September   Improvements Can Be Made in Providing Assistance to Taxpayers
              1999      Taxpayer Burden:                      130,000 electronic mail inquiries
199910061   September   Opportunities to Improve the Effectiveness of Internal Revenue Service
              1999      Advocacy Efforts
199910072   September   The Internal Revenue Service Needs to Improve Compliance with Legal and
              1999      Internal Guidelines When Taking Taxpayers’ Property for Unpaid Taxes
                        Taxpayer Rights and Entitlements:      32 taxpayer accounts
199940057   September   Controls Should Be Strengthened Over Business Taxpayer Accounts with
              1999      Frozen Million Dollar Refunds
                        Protection of Resources:               $ 17,500,000 at risk
199930069   September   The New Jersey District Needs to Execute Levy Actions Consistent with Sound
              1999      Tax Administration and Concern for Taxpayer Treatment
                        Taxpayer Rights and Entitlements:      56,000 taxpayer accounts at risk
 094505     September   The Internal Revenue Service’s Individual Taxpayer Identification Number
              1999      Program Was Not Implemented in Accordance with Internal Revenue Code
                        Regulations
199920068   September   The Service Center Mainframe Consolidation Project Has Made Significant
              1999      Progress, But Project Execution and Administration Risks Remain
                        Funds Put to Better Use:               $ 19,000,000
                        Protection of Resources:               $ 7,000,000
                        Reliability of Management Information: $ 1,070,000
199910074   September   The Internal Revenue Service Should Improve Its Federal Tax Lien
              1999      Procedures
                        Taxpayer Rights and Entitlements:      157 taxpayer accounts at risk
199910070   September   The Internal Revenue Service Can Further Improve Its Complaint Processing
              1999      Procedures and Systems
199920066   September   The Internal Revenue Service Needs to Improve Information Systems Quality
              1999      Assurance Efforts over Key Tax Law Changes for the 2000 Filing Season
199910073   September   The Internal Revenue Service Should Continue Its Efforts to Achieve Full
              1999      Compliance with Restrictions on the Use of Enforcement Statistics
199910071   September   The Internal Revenue Service Has Not Fully Implemented Procedures to Notify
              1999      Taxpayers Before Taking Their Funds for Payment of Tax
                        Taxpayer Rights and Entitlements:     204 taxpayer accounts at risk
199910077   September   The Internal Revenue Service’s Procedures for Responding to Written
              1999      Requests for Collection Activity From Joint Return Filers Vary From
                        Statutory Requirements
199910076   September   The Internal Revenue Service Needs to Enhance Guidance on and Monitoring
              1999      of Compliance with Procedures for Directly Contacting Taxpayers and Their
                        Representatives
199910080   September   The Internal Revenue Service Is Addressing the Use of the Illegal Tax
              1999      Protestor and Nonfiler Designations




                Treasury Inspector General for Tax Administration
                              September 30, 1999
                                               55
                      Semiannual Report to the Congress


                                                                                   Appendix IV

                          TIGTA Audit Report Listing


Report
          Issued     Report Title
Number
092104   September   Further Improvements Are Needed to the Internal Revenue Service’s Process
           1999      for Admitting Preparers and Transmitters Into Its Electronic Filing Program




             Treasury Inspector General for Tax Administration
                           September 30, 1999
                                            56
                               Semiannual Report to the Congress


                                                                                       Appendix V

                                      Section 1203 Standards

In general, the Commissioner of Internal Revenue shall terminate the employment of any
employee of the IRS if there is a final administrative or judicial determination that such employee
committed any act or omission described in the performance of the employee’s official duties.
Such termination shall be removal for cause on charges of misconduct.
Acts or omissions are:
(1) willful failure to obtain the required approval signatures on documents authorizing the seizure
    of a taxpayer’s home, personal belongings, or business assets;
(2) providing a false statement under oath with respect to a material matter involving a taxpayer
    or taxpayer representative;
(3) with respect to a taxpayer, taxpayer representative, or other employee of the IRS, the violation
    of –
        •    any right under the Constitution of the United States, or
        •    any civil right established under –
                 (i)       Title VI or VII of the Civil Rights Act of 19641,
                 (ii)      Title IX of the Education Amendments of 19722,
                 (iii)     The Age Discrimination in Employment Act of 19673,
                 (iv)      The Age Discrimination Act of 19754,
                 (v)       Section 501 or 504 of the Rehabilitation Act of 19735, or
                 (vi)      Title I of the Americans with Disabilities Act of 19906;
(4) falsifying or destroying documents to conceal mistakes made by any employee with respect to
     a matter involving a taxpayer or taxpayer representative;
(5) assault or battery on a taxpayer, taxpayer representative, or other employee of the IRS, but
    only if there is a criminal conviction, or a final judgment by a court in a civil case, with
    respect to the assault or battery;
(6) violations of the Internal Revenue Code, Department of Treasury regulation, or policies of the
    IRS (including the Internal Revenue Manual) for the purpose of retaliating against, or
    harassing a taxpayer, taxpayer representative, or other employee of the IRS;
(7) willful misuse of the provisions of Section 6103 of the Internal Revenue Code for the purpose
    of concealing information from a Congressional inquiry;

1
  42 U.S.C. § 2000e
2
  20 U.S.C. §§ 1681-1688
3
  29 U.S.C. §§ 621-634
4
  42 U.S.C. §§ 6101-6107
5
  29 U.S.C. §§ 701 & 794
6
  42 U.S.C. §§ 12111 et seq.

                       Treasury Inspector General for Tax Administration
                                     September 30, 1999
                                                   57
                            Semiannual Report to the Congress


                                                                                      Appendix V

                                    Section 1203 Standards

(8) willful failure to file any return of tax required under the Internal Revenue Code of 1986 on or
    before the date prescribed therefor (including any extensions), unless such failure is due to
    reasonable cause and not to willful neglect;
(9) willful understatement of federal tax liability, unless such understatement is due to reasonable
    cause and not to willful neglect; and,
(10) threatening to audit a taxpayer for the purpose of extracting personal gain or benefit.

In general, the Commissioner of Internal Revenue may take a personnel action other than
terminate for an act or omission above. The exercise of this authority shall be at the sole
discretion of the Commissioner and may not be delegated to any other officer. The
Commissioner in his sole discretion may establish a procedure which will be used to determine
whether an individual should be referred to the Commissioner for a determination by the
Commissioner. Any determination of the Commissioner in these matters may not be appealed in
any administrative or judicial proceeding.




                   Treasury Inspector General for Tax Administration
                                 September 30, 1999
                                                 58
                              Semiannual Report to the Congress


                                                                                            Appendix VI

                           Statutory TIGTA Reporting Requirements

Shortly after the July 22, 1998, passage of the legislation that created TIGTA, the former IRS
Internal Audit staff began planning the audit work around the 11 statutory provisions. Sixteen
final audit reports were issued in September 1999 that dealt with taxpayer protection and rights,
and the adequacy and security of the technology of the IRS. Final reports for two statutory audits
of taxpayer protection and rights were not issued as of September 30, 1999, but will be issued
during the next reporting period.


   Reference to             Explanation of the
    Mandated                                                    Comments/TIGTA Audit Status
                                Provision
    Coverage


Restrictions on the      An evaluation of the           Final report issued, Report No. 199910073
Use of Enforcement       compliance of the IRS with     This report has been highlighted in this semiannual
Statistics               restrictions under § 1204 of   report and a synopsis of the report is listed in the
                         RRA 98 on the use of           Statutory Requirements section.
I.R.C.                   enforcement statistics to
§ 7803(d)(1)(A)(i)       evaluate IRS employees.

Restrictions on          An evaluation of the           Final report issued, Report No. 199910076
Directly Contacting      compliance of the IRS with     The IRS has procedures that should enable it to
Taxpayers                restrictions under § 7521 of   protect taxpayers’ rights during an interview with
                         RRA 98 on directly             the taxpayer or when IRS employees appropriately
I.R.C.                   contacting taxpayers who       bypass a representative and contact a taxpayer
§ 7803(d)(1)(A)(ii)      have indicated that they       directly. However, the auditors could not determine
                         prefer their representatives   whether IRS employees complied with the
                         be contacted.                  procedures or protected taxpayers’ rights because
                                                        the auditors could not identify or review cases.
                                                        Current IRS management information systems do
                                                        not separately record or monitor cases where
                                                        taxpayers requested representation during an
                                                        interview, and there is no requirement for the IRS to
                                                        maintain separate records for these situations.

Filing of a Notice of    An evaluation of the           Final report issued, Report No. 199910074
Lien                     compliance of the IRS with     This report has been highlighted in this semiannual
                         required procedures under      report and a synopsis of the report is listed in the
I.R.C.                   I.R.C. § 6320 upon the         Statutory Requirements section.
§ 7803(d)(1)(A)(iii)     filing of a notice of lien.




                       Treasury Inspector General for Tax Administration
                                     September 30, 1999
                                                       59
                              Semiannual Report to the Congress


                                                                                              Appendix VI

                          Statutory TIGTA Reporting Requirements


   Reference to            Explanation of the
    Mandated                                                     Comments/TIGTA Audit Status
                               Provision
    Coverage


Seizures and Levies     An evaluation of the             Final report issued, Report No. 199910072
                        compliance of the IRS with       (Seizure) and Final Report No. 199910071 (Levy)
I.R.C.                  required procedures under        These reports have been highlighted in this
§ 7803(d)(1)(A)(iv)     Subchapter D of                  semiannual report and a synopsis of each report is
                        Chapter 64 for seizure of        listed in the Statutory Requirements section.
                        property for collection of
                        taxes, including required
                        procedures under
                        I.R.C. § 6330 regarding
                        levies.
Taxpayer                An evaluation of the             Final report issued, Report No. 199910080
Designations –          compliance of the IRS with       The IRS has taken actions and is substantially in
Illegal Taxpayer        restrictions under § 3707 of     compliance with RRA 98 as it relates to no longer
Designation and         RRA 98 on designation of         designating taxpayers as Illegal Tax Protestors
Nonfiler                taxpayers.                       (ITP), removing the ITP designation from the
Designation                                              Individual Masterfile, and disregarding the ITP
                                                         designation made on or before July 22, 1998, on
I.R.C.                                                   other IRS computer and paper files.
§ 7803(d)(1)(A)(v)
Disclosure of           Review and certify               Final report issued, Report No. 199910077
Collection Activities   whether or not the IRS is        To comply with statutory requirements, the IRS
with Respect to         complying with                   developed procedures for responding to taxpayers
Joint Returns           I.R.C. 6103(e)(8) to             who file jointly and submit written requests for
                        disclose information to an       information on the IRS’ collection activity.
I.R.C.                  individual filing a joint        However, these procedures allow IRS employees to
§ 7803(d)(1)(B)         return on collection             provide both oral and written responses to
I.R.C. § 6103(e)(8)     activity involving the other     taxpayers. This is different from the statutory
                        individual filing the return.    requirements, which require the IRS to provide
                                                         written responses if taxpayers or their
                                                         representatives send in a written request. The IRS
                                                         controls general correspondence from taxpayers but
                                                         is not required to maintain separate records of the
                                                         joint filer requests. The IRS also does not have a
                                                         process to ensure that employees are following
                                                         procedures for responding to the joint filer requests.
                                                         Therefore, the auditors could not determine if the
                                                         IRS is complying with the statutory requirements
                                                         and protecting taxpayer rights, because they could
                                                         not readily identify any joint filer requests from
                                                         taxpayers in the IRS’ records or verify whether the
                                                         IRS properly answered the joint filer requests.




                      Treasury Inspector General for Tax Administration
                                    September 30, 1999
                                                        60
                              Semiannual Report to the Congress


                                                                                           Appendix VI

                          Statutory TIGTA Reporting Requirements


      Reference to          Explanation of the
       Mandated                                                 Comments/TIGTA Audit Status
                                Provision
       Coverage


Complaints and           List any terminations or       Final report issued, Report No. 199910070
Allegations of           mitigation under § 1203 of     The IRS currently does not have an integrated
Employee                 RRA 98, § 1102(a).             complaint processing system for identifying and
Misconduct and                                          reporting taxpayer complaints and allegations of
Terminations and                                        employee misconduct. Instead, it uses various
Mitigation for                                          existing systems and procedures that were
Certain Proven                                          implemented prior to RRA 98. However, the IRS is
Violations                                              taking significant actions to improve its complaint
Committed by IRS                                        processing procedures and systems.
Employees

I.R.C.
§ 7803(d)(1)(E)
I.R.C.
§ 7803(d)(2)(A)

Administrative or        Include information            A draft report was issued to IRS management and the
Civil Actions with       regarding any                  final report will be issued during the next reporting
Respect to the Fair      administrative or civil        period.
Debt Collection          actions with respect to        Information provided by the Department of Justice’s
Practices Act of         violations of the fair debt    Tax Division showed that during the period
19961                    collection provision of        July 22, 1998, to March 31, 1999, there were no civil
                         I.R.C. § 6304, including a     actions resulting in money paid out to taxpayers as a
I.R.C.                   summary of such actions,       result of Fair Debt Collection Practices Act
§ 7803(d)(1)(G)(i)(ii)   and any resulting              (FDCPA) violations by IRS employees. However,
                         judgments or awards            through a review of the IRS’ various management
I.R.C. § 6304
                         granted.                       information systems, the auditors identified two
§ 3466 of RRA 98
                                                        FDCPA violations that resulted in employee
                                                        administrative action for the period July 22, 1998,
                                                        through March 18, 1999.




1
    15 U.S.C §§ 1601 & 1692 (1994)

                      Treasury Inspector General for Tax Administration
                                    September 30, 1999
                                                       61
                                  Semiannual Report to the Congress


                                                                                                  Appendix VI

                              Statutory TIGTA Reporting Requirements


      Reference to              Explanation of the
       Mandated                                                       Comments/TIGTA Audit Status
                                    Provision
       Coverage


Denial of Requests           Include information              Audit work has been completed and a final report
for Information              regarding improper denial        will be issued during the next reporting period.
                             of requests for information
                                                              This first audit was broadened to include a review of
I.R.C.                       from the IRS, based on a         all denied FOIA requests. In addition, we did not
§ 7803(d)(1)(F)              statistically valid sample of    review I.R.C. § 6103 requests because we could not
I.R.C.                       the total number of
                                                              identify denied requests on IRS' computer systems.
§ 7803(d)(3)(A)              determinations made by
                             the IRS to deny written          The auditors found that the IRS improperly withheld
                             requests to disclose             information that should have been provided to the
                             information to taxpayers         requester for:
                             on the basis of I.R.C.           •   12.4 percent of the denied or partially denied
                             § 6103 or § 552(b)(7) of             FOIA requests.
                             Title 5, U.S.C.
                                                              •   8.8 percent of the denied or partially denied
                                                                  Privacy Act1 requests that were processed as
                                                                  FOIA requests.


Adequacy and                 An evaluation of the             During this reporting period, the Office of Audit
Security of the              adequacy and security of         issued eight reports in this area.
Technology of the            the technology of the IRS.       Final Reports Issued:
IRS                                                             Report No. 199920068
                                                                Report No. 199920063
I.R.C.                                                          Report No. 199940062
§ 7803(d)(1)(D)                                                 Report No. 094602
                                                                Report No. 093103
                                                                Report No. 093009
                                                                Report No. 092903
                                                                Report No. 092303




1
    5 U.S.C. § 552a (1994)

                      Treasury Inspector General for Tax Administration
                                    September 30, 1999
                                                             62
                           Semiannual Report to the Congress


                                                                                         Appendix VI

                        Statutory TIGTA Reporting Requirements


   Reference to          Explanation of the
    Mandated                                                 Comments/TIGTA Audit Status
                             Provision
    Coverage


Extensions of the     Include information            The effective date for this provision is
Statute of            regarding extensions of the    January 1, 2000. Therefore, the audit is scheduled to
Limitations for       statute of limitations for     start in FY 2000.
Assessment and        assessment and collection
Collection of Tax     of tax under I.R.C. § 6501
                      and the provision of notice
I.R.C.                to taxpayers regarding
§ 7803(d)(1)(C)       requests for such
I.R.C. § 6501         extension.




                    Treasury Inspector General for Tax Administration
                                  September 30, 1999
                                                    63
This Page Left Intentionally Blank
                     Semiannual Report to the Congress


                                                                          Appendix VII

                                        Acronyms

ANMF    Automated Non-Masterfile                  I.R.C.   Internal Revenue Code
APR     Applications Program Registry             IRS      Internal Revenue Service
ATLAS   Audit Trail Lead Analysis System          ISC      Integration Support Contract
CDC     Century Date Change                       ITIN     Individual Taxpayer Identification
CFS     Customer Feedback System                           Number
COTS    Commercial-Off-The-Shelf                  ITP      Illegal Tax Protestor
DIF     Discriminant Function                     MACS     Midwest Automated Compliance
DOL     Department of Labor                                System
EFDS    Electronic Fraud Detection                PMO      Project Management Office
        System                                    PRP      Problem Resolution Program
ERCS    Examination Returns Control               RCP      Regional Compliance Program
        System                                    RRA 98   Restructuring and Reform Act of
ESC     Executive Steering Committee                       1998
ETP     External Trading Partner                  SED      Strategic Enforcement Division
FAA     Federal Aviation Administration           SSA      Social Security Administration
FCL     Federal Computer Laboratory               TBOR2    Taxpayer Bill of Rights 2
FDCPA   Fair Debt Collection Practices Act        TECS     Treasury Enforcement
FIRP    Foreign Information Returns                        Communications System
        Program                                   TFR      Trust Fund Recovery
FOIA    Freedom of Information Act                TFSD     Technical and Forensic Support
FSL     Forensic Science Laboratory                        Division
FTL     Federal Tax Lien                          TIGTA    Treasury Inspector General for
FY      Fiscal Year                                        Tax Administration
GAO     General Accounting Office                 TIPSS    Treasury Information Processing
GPRA    Government Performance and                         Support Services
        Results Act of 1993                       TRA 97   Taxpayer Relief Act of 1997
IG      Inspector General                         UNAX     Unauthorized Access to Taxpayer
IDRS    Integrated Data Retrieval System                   Accounts
INOMS   Integrated Network and                    U.S.C.   United States Code
        Operations Management System              Y2K      Year 2000
INS     Immigration and Naturalization
        Service




           Treasury Inspector General for Tax Administration
                         September 30, 1999
                                             65
This Page Left Intentionally Blank
                                                        Semiannual Report to the Congress


                                                                                                                                                      Appendix VIII

                                                                    Organization Chart



                                                                        Inspector General
                                                                             for Tax
                                                                          Administration


                                                        Chief Counsel to the                    Office of
                                                         Inspector General                     Executive
                                                                                               Secretariat
                                                          Washington, DC


                   Deputy Inspector                                      Deputy Inspector                                             Assistant IG
                   General for Audit                                  General for Investigations                                  Management Services

                   Washington, DC                                          Washington, DC                                            Washington, DC


      Associate IG,                Associate IG,        Associate IG for Invest.        Associate IG for Invest.      National Director,          National Director,
  Information Systems          Small Bus. & Corporate   (Investigative Support)            (Field Division)        Information Technology     Performance & Investment
       Programs                      Programs
     Washington, DC              Washington, DC            Washington, DC                  Washington, DC             Washington, DC              Washington, DC

      Associate IG,                Associate IG,                                                                     National Director,
Headquarters Operations &    Wage & Investment Income                                    Deputy Associate IG         Human Resources
  Exempt Org. Programs               Programs                                             for Investigations
     Washington, DC                 Atlanta, GA                                            (Field Division)           Washington, DC
                                                                                           Washington, DC




                                                 Treasury Inspector General for Tax Administration
                                                               September 30, 1999
                                                                                   67
This Page Left Intentionally Blank
   Treasury Inspector General
     for Tax Administration
                    call our

               Hotline
            1-800-366-4484
                   To Report

 Fraud, Waste, Abuse!
in the Internal Revenue Service
     Information is confidential
  and caller may remain anonymous
                 or write to: TIGTA
         P.O. Box 589, Ben Franklin Station
           Washington, D.C. 20044-0589

       For Tax Problem Assistance
    Call the IRS Taxpayer Advocate at:
              1-877-777-4778
DEPARTMENT OF THE TREASURY
OFFICE OF THE INSPECTOR GENERAL FOR TAX ADMINISTRATION
1111 CONSTITUTION AVENUE, NW, SUITE 3031
WASHINGTON, D.C. 20224




Publication Number 3372 (Rev. 11-1999)
Catalog Number 27393K
